No. 19A996
_______________________________________

IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________

EDWARD THOMAS, WARDEN,
CENTRAL PRISON, RALEIGH, NORTH CAROLINA
PETITIONER,
v.
WILLIAM LEROY BARNES,
RESPONDENT.
________________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
________________________________________
APPENDIX VOLUME
[CAPITAL CASE]
________________________________________
JOSHUA H. STEIN
ATTORNEY GENERAL
Jonathan P. Babb
Special Deputy Attorney General
*Counsel of Record
North Carolina Department of Justice
Post Office Box 629
Raleigh, North Carolina 27602
(919) 716-6500
jbabb@ncdoj.gov

APPENDIX INDEX
A.

Opinion of the United States Court of Appeals for the Fourth
Circuit, Granting Habeas Relief, Barnes v. Thomas, 938 F.3d 526
(4th Cir. 2019)......................................................................................... 1a

B.

Order of the United States Court of Appeals for the Fourth
Circuit, Denying Rehearing, Barnes v. Thomas, 2019 U.S. App.
LEXIS 37725 (4th Cir. 2019) ............................................................... 18a

C.

Decision of United States District Court for the Middle District of
North Carolina, Denying Habeas Relief, Barnes v. Thomas, 2018
WL 3659016 (M.D.N.C 2018) (unpublished) ....................................... 25a

D.

Recommendation of the United States Magistrate Judge for the
United States District Court for the Middle District of North
Carolina, Barnes v. Joyner, 2018 WL 4765207 (M.D.N.C 2018) ........ 38a

1a

Caution
As of: May 13, 2020 8:59 PM Z

Barnes v. Thomas
United States Court of Appeals for the Fourth Circuit
May 8, 2019, Argued; September 12, 2019, Decided
No. 18-0005
Reporter
938 F.3d 526 *; 2019 U.S. App. LEXIS 27500 **; 2019 WL 4308636

WILLIAM LEROY BARNES, Petitioner - Appellant, v.
EDWARD THOMAS, Warden, Central Prison, Raleigh,
North Carolina, Respondent - Appellee.

Subsequent History: Rehearing denied by, En banc,
Rehearing denied by Barnes v. Thomas, 2019 U.S. App.
LEXIS 37725 (4th Cir. N.C., Dec. 18, 2019)

Prior History: [**1] Appeal from the United States
District Court for the Middle District of North Carolina, at
Greensboro. (1:08-cv-00271-TDS-JEP). Thomas D.
Schroeder, Chief District Judge.

Barnes v. Thomas, 2018 U.S. Dist. LEXIS 129932
(M.D.N.C., Aug. 2, 2018)

Overview
HOLDINGS: [1]-Where a juror improperly consulted with
her pastor about whether she could vote to impose the
death penalty without running afoul of her religious
beliefs and then spent 30 minutes relaying his guidance
to the entire jury, the juror's external communication was
not harmless, and the district court erred in denying
habeas relief.

Outcome
Judgment reversed and case remanded.

LexisNexis® Headnotes

Core Terms
Juror, sentence, death penalty, actual prejudice,
deliberations, external, district court, conversation,
injurious effect, co-defendant, juror misconduct,
magistrate judge, harmless, verses, evidentiary hearing,
jury's decision, law of the land, death sentence,
prejudicial, prejudiced, religious, murder, recommended,
courts, closing argument, jury's verdict, habeas relief,
jury room, circumstances, dictionary

Case Summary

Criminal Law & Procedure > ... > Exceptions to
Default > Cause & Prejudice Standard > Proof of
Prejudice
Criminal Law & Procedure > Habeas
Corpus > Review > Specific Claims
HN1[ ] Cause & Prejudice Standard, Proof of
Prejudice
The court is not permitted to grant habeas relief unless it
is convinced that the error had a substantial and
injurious effect—otherwise known as actual prejudice—
on the jury's sentence recommendation. A state court's
failure to apply the Remmer presumption only results in

2a

Page 2 of 17

938 F.3d 526, *526; 2019 U.S. App. LEXIS 27500, **1
actual prejudice if the jury's verdict was tainted by the
external communication.

Criminal Law & Procedure > Juries & Jurors > Jury
Deliberations > Outside Influences
HN4[

Criminal Law &
Procedure > ... > Review > Standards of
Review > Harmless Errors
HN2[

] Standards of Review, Harmless Errors

The substantial and injurious effect standard used to
determine harmlessness on habeas appeal comes from
the Supreme Court's decision in Kotteakos v. United
States. That case instructs courts to look to what effect
the error had or reasonably may be taken to have had
upon the jury's decision. If, when all is said and done,
the conviction is sure that the error did not influence the
jury, or had but very slight effect, the verdict and the
judgment should stand. However, if the federal court is
in grave doubt about whether the trial error had a
substantial and injurious effect or influence on the
verdict and therefore finds itself in virtual equipoise
about the issue, the error is not harmless.

Criminal Law & Procedure > Juries & Jurors > Jury
Deliberations > Privacy of Deliberations
HN3[

] Jury Deliberations, Outside Influences

A prejudicial influence need not take the form of a third
party directly telling jurors how they should vote or
introducing new facts or law for their consideration. An
improper external influence may include an outside
influence upon the partiality of the jury, such as private
communication, contact, or tampering with a juror.

Criminal Law &
Procedure > ... > Review > Standards of
Review > Harmless Errors
HN5[

] Standards of Review, Harmless Errors

The focus of the harmless error inquiry is not on the
sufficiency of the evidence absent the error, but rather
on the impact of the error on the jury's verdict. Harmless
error review looks to the basis on which the jury actually
rested its verdict not to whether, in a trial that occurred
without the error, a guilty verdict would surely have been
rendered. While the harmless error standard on habeas
review is stringent, it does not require virtual certainty to
grant relief.

] Jury Deliberations, Privacy of Deliberations

Fed. R. Evid. 606(b)(1) provides that a juror may not
testify about any statement made or incident that
occurred during the jury's deliberations; the effect of
anything on that juror's or another juror's vote; or any
juror's mental processes concerning the verdict or
indictment. Fed. R. Evid. 606(b)(1). While, under an
exception to the rule, a juror may testify about whether
extraneous prejudicial information was improperly
brought to the jury's attention or any outside influence
was improperly brought to bear upon any juror, Fed. R.
Evid. 606(b)(2), juror testimony concerning the effect of
the outside communication on the minds of jurors is
inadmissible. Rule 606 thus presents unique difficulties
in the context of juror misconduct claims. Given how
Rule 606 limits the presentation of evidence in these
circumstances, it is especially important for the court to
view the record practically and holistically when
considering the effect that a juror's misconduct
reasonably may be taken to have had upon the jury's
decision.

Counsel: ARGUED: M. Gordon Widenhouse, Jr.,
RUDOLF WIDENHOUSE, Chapel Hill, North Carolina,
for Appellant.
Jonathan Porter Babb, Sr., NORTH CAROLINA
DEPARTMENT OF JUSTICE, Raleigh, North Carolina,
for Appellee.
ON BRIEF: George B. Currin, Asheville, North Carolina,
for Appellant.
Joshua H. Stein, Attorney General, NORTH CAROLINA
DEPARTMENT OF JUSTICE, Raleigh, North Carolina,
for Appellee.

Judges: Before AGEE, FLOYD, and THACKER, Circuit
Judges. Judge Floyd wrote the opinion in which Judge

3a

Page 3 of 17

938 F.3d 526, *526; 2019 U.S. App. LEXIS 27500, **1
Thacker joined. Judge Agee wrote a separate dissenting
opinion.

Opinion by: FLOYD

Opinion
[*528] FLOYD, Circuit Judge:
More than 20 years ago, Petitioner William Leroy
Barnes was convicted of murder in North Carolina state
court and sentenced to death. Following the trial,
Barnes sought to overturn his death sentence, claiming
that during sentencing deliberations, a juror improperly
consulted with her pastor about whether she could vote
to impose the death penalty without running afoul of her
religious beliefs. She then relayed his guidance to the
entire jury. Barnes' juror misconduct [**2] claim made
its way through the North Carolina state courts,
culminating in a final denial in state [*529] postconviction proceedings. On Barnes' first federal habeas
appeal, we held that the post-conviction court violated
clearly established federal law by failing to afford Barnes
a presumption of prejudice and an evidentiary hearing
on his juror misconduct claim, as required by Remmer v.
United States, 347 U.S. 227, 229, 74 S. Ct. 450, 98 L.
Ed. 654, 1954-1 C.B. 146 (1954). We remanded for an
evidentiary hearing to determine if this error resulted in
actual prejudice, thus warranting habeas relief. We now
hold that it did.
I.
William Leroy Barnes, an inmate on North Carolina's
death row, appeals the district court's second denial of
his petition for writ of habeas corpus against Edward
Thomas, Warden of the Central Prison in Raleigh, North
Carolina (hereinafter the "State"). In 1994, Barnes was
convicted of first-degree murder in North Carolina state
court for the deaths of B.P. and Ruby Tutterow. After
Barnes was found guilty, the trial proceeded to the
sentencing phase, where the jury was charged with
determining whether Barnes and his two codefendants
would be sentenced to death or life imprisonment.
During closing arguments of the sentencing phase, an
attorney representing Frank [**3] Chambers, one of
Barnes' codefendants, made religiously charged
statements about a juror's choice to impose the death

sentence:
Surely, one among you believes in God, the father,
the son, the Holy Ghost, the teachings of Jesus
Christ. And if you do, you know that Frank
Chambers will have two judgment days. The one
he's got today, where you sit as his judge, and you
determine what happens with his earthly life. . . . [I]f
you are a true believer, you know that he will have
a second judgment day. . . . On that day, he will be
judged not by the law of man, but by a higher law,
the laws of God. . . . If you're a true believer and
you believe that Frank Chambers will have a
second judgment day, then we know that all of us
will too. All of us will stand in judgment one day.
And what words is it that a true believer wants to
hear? Well done, my good and faithful servant. You
have done good things with your life. You have
done good deeds. Enter into the Kingdom of
Heaven. Isn't that what a true believer wants to
hear? Or does a true believer want to explain to
God, yes, I did violate one of your commandments.
Yes, I know they are not the ten suggestions. They
are the ten commandments. I know [**4] it says,
Thou shalt not kill, but I did it because the laws of
man said I could. You can never justify violating a
law of God by saying the laws of man allowed it. If
there is a higher God and a higher law, I would say
not. To be placed in the predicament that the State
has asked you to place yourself in, is just that. To
explain when your soul is at stake. Yes, I know the
three that I killed were three creatures of yours,
God. And that you made them in your likeness. I
know you love us all, but I killed them because the
State of North Carolina said I could. Who wants to
be placed in that position? I hope none of us. And
may God have mercy on us all.
J.A. 1530-33.
These statements were presented with no interjection
from the prosecution or the trial court. The next day, the
jury recommended that Barnes be sentenced to death.
Immediately after the jury returned its sentencing
recommendation and exited the courtroom, Barnes'
attorney alleged to the trial court that one of the jurors
had met with her pastor to discuss the death penalty
during sentencing deliberations and had relayed the
pastor's counsel to the other jurors. The trial court
denied Barnes' request to inquire further into [**5] the
matter, and Barnes appealed to the Supreme Court of
North Carolina. The state [*530] supreme court denied
relief, holding that Barnes had not proven that the
alleged contact between the juror and her pastor

4a

Page 4 of 17

938 F.3d 526, *530; 2019 U.S. App. LEXIS 27500, **5
prejudiced Barnes or denied him the right to an impartial
jury.
In 1999, Barnes sought state post-conviction relief by
filing a Motion for Appropriate Relief (MAR) in Rowan
County Superior Court (the "MAR Court"), in which he
reasserted his juror misconduct claim, among others.
With the motion, Barnes presented new information to
further corroborate his juror misconduct claim. For
example, Barnes introduced a summary of a 1995
interview his direct appeal team conducted with the juror
accused of misconduct, Hollie Jordan (hereinafter "Juror
Jordan"). Juror Jordan signed the summary and
acknowledged that it was an accurate representation of
the interview. According to the summary, Juror Jordan
was offended by the religiously charged closing
arguments, and although she "'did not accept the
attorney's argument,' she did notice 'that another juror, a
female, seemed visibly upset.'" Barnes v. Joyner, 751
F.3d 229, 235 (4th Cir. 2014) (hereinafter Barnes I)
(quoting interview summary). "'To remedy the effect of
the argument, [Juror] Jordan [**6] brought a Bible from
home into the jury deliberation room' and read a
passage to all the jurors, which provided 'that it is the
duty of Christians to abide by the laws of the state.'" Id.
(quoting interview summary).
The MAR Court summarily denied Barnes' juror
misconduct claim as "procedurally barred and without
merit" because the issue had been previously
addressed and rejected by the Supreme Court of North
Carolina on direct appeal.1 J.A. 1883. The Supreme
Court of North Carolina denied Barnes' request for
certiorari review.
In 2008, Barnes filed a petition for writ of habeas corpus
pursuant to 28 U.S.C. § 2254 in which he again raised
his juror misconduct claim. Barnes argued that under
Remmer v. United States, 347 U.S. 227, 74 S. Ct. 450,
98 L. Ed. 654, 1954-1 C.B. 146 (1954), he was entitled
to a presumption of prejudice and an evidentiary hearing
upon presentation of a credible allegation of juror
misconduct. A magistrate judge recommended that his
juror misconduct claim be denied. After concluding that
Barnes' claims did not require a hearing, the district

court adopted the magistrate judge's recommendation
and denied Barnes' habeas petition. Barnes then
brought his first appeal.
On our first review of this case, we concluded that the
MAR Court's disposal of Barnes' juror misconduct [**7]
claim amounted to an unreasonable application of
Remmer v. United States, 347 U.S. at 229, which
"clearly established not only a presumption of prejudice,
but also a defendant's entitlement to an evidentiary
hearing, when the defendant presents a credible
allegation of communications or contact between a third
party and a juror concerning the matter pending before
the jury." Barnes I, 751 F.3d at 242. We distinguished
Barnes' allegations of juror misconduct from cases in
which we have held that an internal juror influence—i.e.,
a juror's own bias or communication with fellow jurors—
does not implicate a defendant's Sixth Amendment right
to an impartial jury. Id. at 245-46; see also Robinson v.
Polk, 438 F.3d 350, 361-66 (4th Cir. 2006) (holding that
juror's request for bailiff to bring Bible into jury room was
not an [*531] external influence raising Sixth
Amendment concerns because bailiff did not "instruct[]
the jury to consult the Bible" or do "anything other than
simply provide the Bible upon the juror's request");
Stockton v. Com. Of Va., 852 F.2d 740, 744 (4th Cir.
1988) (distinguishing between internal "juror impairment
or predisposition" and the more serious danger of
"extraneous communication"). Because Barnes credibly
alleged an improper external influence on the jury, we
held, the MAR Court erred in failing to apply a
presumption of prejudice and afford Barnes a hearing.
Barnes I, 751 F.3d at 247-48. However, because
habeas [**8] relief is only warranted if the petitioner
suffered actual prejudice as a result of the constitutional
error, we remanded the case for the district court to
conduct an evidentiary hearing "solely on the issue of
whether the state court's failure to apply the Remmer
presumption and failure to investigate Juror Jordan's
contact with Pastor Lomax had a substantial and
injurious effect or influence on the jury's verdict." Id. at
252.
On remand, the parties held an evidentiary hearing
before a magistrate judge. Barnes called four witnesses:
Janine Fodor, Hollie Jordan, Ardith Peacock, and Leah
Weddington. The State called no witnesses.

1 N.C.

Gen. Stat. § 15A-1419(a)(2) provides that a claim is
procedurally barred for purposes of MAR review if, among
other things, the issue "was previously determined on the
merits upon an appeal from the judgment . . . in the courts of
this State or a federal court." However, this provision is not a
procedural bar for purposes of federal habeas review. Brown
v. Lee, 319 F.3d 162, 170 n.2 (4th Cir. 2003).

During the evidentiary hearing, the parties raised
several objections to certain testimony regarding the
jurors' mental thought processes under Federal Rule of
Evidence 606. The magistrate judge acknowledged that
there were "gray areas," or confusion, as to how Rule

5a

Page 5 of 17

938 F.3d 526, *531; 2019 U.S. App. LEXIS 27500, **8
606 should apply to the hearing and allowed the State to
maintain a standing objection. J.A. 2260. Even with this
standing objection, however, the State made several
Rule 606 objections throughout the hearing and
engaged in extended colloquy with the magistrate judge
on how to resolve the issue. See, e.g., J.A. 2283-90.
The magistrate judge did not [**9] exclude any
testimony during the hearing, itself, but gave the parties
an opportunity to further address the issue in their posthearing briefing.
Barnes' first witness, attorney Janine Fodor,
represented Barnes in his direct appeal. Fodor testified
that while reviewing the trial record, she flagged Barnes'
juror misconduct claim as an issue to raise on direct
appeal. She then conducted interviews of some
members of the jury and "asked about whether or not
anybody remembered a juror contacting somebody or
bringing a Bible into the jury room." J.A. 2255. Fodor
testified that she interviewed Juror Jordan, who
confirmed that she had contacted her pastor during
sentencing deliberations and shared his thoughts with
the jury.
Barnes next called Hollie Jordan. Juror Jordan testified
that when she was a juror for Barnes' capital murder
trial, she attended Old Country Baptist Church where
Tom Lomax was the pastor. She testified that she
attended church "[e]very time the doors were open" and
considered Pastor Lomax a spiritual guide. J.A. 226768. According to Juror Jordan, the closing arguments of
Chambers' attorney "stood out" to her because he
stated that "if [defendants] got the death
sentence [**10] that [the jurors] would burn in hell." J.A.
2269. Juror Jordan testified that she "didn't know the
Bible all that well then" and sought further counsel from
Pastor Lomax on the first night of jury deliberations,
before the jury had reached a sentence. J.A. 2269.
Juror Jordan said she spoke with Pastor Lomax for "a
couple hours probably," but only discussed the case
with him for a "few minutes." J.A. 2270-71. She told him
"how horrific the pictures [of the crime scene] were," J.A.
2270, and "asked him if we gave [defendants] the death
sentence would we burn in hell." J.A. 2269. Pastor
Lomax answered no and told her the jurors [*532] "had
to live by the laws of the land." J.A. 2271. Juror Jordan
testified that Pastor Lomax pointed her to "some
scriptures in the Bible . . . that explained everything."
J.A. 2271. She testified that although she "was worried"
that the jurors were "going to die because [they were]
killing [the defendants]," she felt better after speaking
with Pastor Lomax. J.A. 2272. Juror Jordan testified that
she returned to the jury room the following day and

spoke with her fellow jurors for 15 to 30 minutes about
her conversation with Pastor Lomax.
In response to a question [**11] posed by Barnes'
counsel, Juror Jordan also noted that when she spoke
with Pastor Lomax, she had already "made up in [her]
mind" on the sentence she was going to vote for; she
"just wanted to know if [she] was going to burn in hell for
it." J.A. 2272. Barnes moved to strike this statement
under Federal Rule of Evidence 606. In its report and
recommendation, the magistrate judge agreed with
Barnes that the "juror's mental thought processes
should not be considered" and did not consider this
response. J.A. 2390. The district court likewise did not
consider the statement.
Barnes next called Ardith Peacock (hereinafter "Juror
Peacock"), another juror in Barnes' trial. Juror Peacock
testified that on the second day of sentencing
deliberations, Juror Jordan brought a Bible into the jury
room and read several passages aloud. While she did
not recall the specific passages that Juror Jordan read,
she remembered that one dealt with an "eye for an eye
and tooth for a tooth." J.A. 2281. Juror Peacock testified
that Juror Jordan did not say, specifically, whether the
verses were intended to advocate for or against the
death penalty. But she agreed with Barnes' counsel's
statement that Juror Jordan brought the passages to
the [**12] jury's attention in order to rebut the religious
statements made during the sentencing phase of trial.
Barnes next called Leah Weddington (hereinafter "Juror
Weddington"), another juror at Barnes' trial. Juror
Weddington testified that she recalled a female juror
reading passages from a Bible in the jury room but did
not recall the name of the juror or the specific passages
that were read. When asked what may have prompted
the juror to read the verses in the jury room, Juror
Weddington responded "I guess she was trying to
convince someone to—it was okay to give him the death
penalty." J.A. 2295.
Following the evidentiary hearing, the magistrate judge
issued a report and recommendation concluding that
juror misconduct did not have a substantial and injurious
effect on the outcome of Barnes' case. With regard to
the Rule 606 issue, as noted, the magistrate judge
excluded Juror Jordan's testimony that she would have
voted to impose the death penalty regardless of Pastor
Lomax's advice. However, the magistrate judge also
noted that the State "did not address [its Rule 606
objections] with any additional authority or specificity" in
its post-hearing briefing and the testimony to which the

6a

Page 6 of 17

938 F.3d 526, *532; 2019 U.S. App. LEXIS 27500, **12
State objected [**13] "appear[ed] to fall within the
exceptions in Fed. R. Evid. 606(b)(2)(A) and (B)." J.A.
2390. The magistrate judge therefore overruled the
State's Rule 606 objections. The district court held that
the magistrate judge did not err in these evidentiary
rulings.
In concluding that Barnes had not shown actual
prejudice, the magistrate judge reasoned that there was
no evidence Pastor Lomax had expressed his views on
the death penalty or attempted to persuade Juror
Jordan to vote for or against it. The magistrate judge
reasoned that evidence did not indicate that Juror
Jordan explicitly told the other jurors whether the
[*533] passages she read were for or against imposing
the death penalty. J.A. 2397 ("[T]he passages were
related to Pastor Lomax's limited statement to Juror
Jordan that the jurors would not 'burn in hell' and that
they should follow the law."). Moreover, the magistrate
judge noted, aggravating factors against Barnes likely
factored more heavily into the jury's decision than Juror
Jordan's communication with Pastor Lomax. The district
court once again adopted the magistrate judge's report
and recommendation and denied habeas relief. Barnes
again appeals to this Court.
II.
We review the district court's denial of Barnes' [**14]
habeas petition de novo. See Bauberger v. Haynes, 632
F.3d 100, 103 (4th Cir. 2011).
III.

quotation marks omitted). "[A] state court's failure to
apply the [Remmer] presumption only results in actual
prejudice if the jury's verdict was tainted" by the external
communication. Barnes I, 751 F.3d at 253 (quoting Hall
v. Zenk, 692 F.3d 793, 805 (7th Cir. 2012)). Therefore,
while the constitutional error in this case lies with the
MAR Court's failure to properly apply Remmer, in
assessing actual prejudice, we look to the effect of Juror
Jordan's external communication on the jury's
sentencing decision.
HN2[ ] The substantial and injurious effect standard
used to determine harmlessness on habeas appeal
comes from the Supreme Court's decision in Kotteakos
v. United States, 328 U.S. 750, 66 S. Ct. 1239, 90 L. Ed.
1557 (1946).3 That case instructs us to look to "what
effect the error had or reasonably may [**15] be taken
to have had upon the jury's decision." Id. at 764. "If,
when all is said and done, the conviction is sure that the
error did not influence the jury, or had but very slight
effect, the verdict and the judgment should stand." Id.
However, "[i]f the federal court is 'in grave doubt' about
whether the trial error had a 'substantial and injurious
effect or influence' on the verdict and therefore finds
itself 'in virtual equipoise' about the issue, the error is
not harmless." Lawlor v. Zook, 909 F.3d 614, 634 (4th
Cir. 2018) (holding that state court's failure to admit
mitigating evidence regarding defendant's ability to
adjust to prison was not harmless when the jury
expressed confusion over whether and how it could
consider such evidence).
B.

A.
We concluded in Barnes I that the MAR Court's failure
to properly apply the Remmer presumption and allow
Barnes a hearing "involved an unreasonable application
of clearly established Federal law, as determined by the
Supreme Court of the United States." Barnes I, 751 F.3d
at 238 (quoting 28 U.S.C. § 2254(d)(1)). However, HN1[
] "we are not permitted to grant habeas relief unless
we are convinced that the error had a substantial and
injurious effect"—otherwise known as actual prejudice—
on the jury's sentence recommendation.2 See Fullwood
v. Lee, 290 F.3d 663, 679 (4th Cir. 2002) (internal

[*534] After reviewing the record, which now includes
the evidentiary hearing to which Barnes was legally
entitled, we hold that Juror Jordan's external
communication was not harmless. Accordingly, we
reverse and remand the district court's denial of habeas
relief.
We note at the outset that our inquiry into whether
Barnes has met his burden of showing actual prejudice
under the Kotteakos standard is frustrated to some
extent by the application of Federal Rule of Evidence
606 in this context. HN3[ ] That rule provides

3 The
2 As

we noted in Barnes I, petitioners are not entitled to the
Remmer presumption of prejudice when proving a substantial
and injurious effect on habeas appeal. See Lawson 677 F.3d
629, 644 (4th Cir. 2012) (citing Vigil v. Zavaras, 298 F.3d 935,
941 n.6 (10th Cir. 2002)).

Kotteakos standard is a "less onerous harmless-error
standard" than the requirement on direct appeal that an error
be proven "harmless beyond a reasonable doubt." Brecht v.
Abrahamson, 507 U.S. 619, 623, 113 S. Ct. 1710, 123 L. Ed.
2d 353 (1993) (holding that the Kotteakos standard applies to
harmless error review on habeas appeal).

7a

Page 7 of 17

938 F.3d 526, *534; 2019 U.S. App. LEXIS 27500, **15
that [**16] a juror may not testify about "any statement
made or incident that occurred during the jury's
deliberations; the effect of anything on that juror's or
another juror's vote; or any juror's mental processes
concerning the verdict or indictment." Fed. R. Evid.
606(b)(1). While, under an exception to the rule, a juror
may testify about whether "extraneous prejudicial
information was improperly brought to the jury's
attention" or any "outside influence was improperly
brought to bear upon any juror," Fed. R. Evid. 606(b)(2),
"juror testimony concerning the effect of the outside
communication on the minds of jurors is inadmissible,"
Stockton v. Com. Of Va., 852 F.2d 740, 744 (4th Cir.
1988) (emphasis added).
Rule 606 thus presents unique difficulties in the context
of juror misconduct claims. See Stockton, 852 F.2d at
750 (Widener, J., concurring in part and dissenting in
part) ("To hold, as we do, that any extraneous
communication to a juror is presumably prejudicial
unless innocuous, and then prevent the State from
proving lack of prejudice by the very juror involved, very
nearly places the State in a box from which escape is
difficult if not impossible."); Sherman v. Smith, 89 F.3d
1134, 1144 (4th Cir. 1996) (Murnaghan, J., dissenting)
(noting that because of a "sparse inquiry into [a juror's
misconduct] at a post-trial hearing" due to Rule 606, "we
do not have all of the facts concerning [**17] the juror's"
misconduct). For example, Barnes was tasked with
proving that Juror Jordan's conduct affected the jury's
decision, but he was prohibited from directly asking any
of the jurors about this effect. This paradox led to
confusion during the evidentiary hearing and lengthy
colloquies between the parties and the magistrate judge
as to the propriety of certain lines of questioning.
Meanwhile, the State argues that the district court erred
in using Rule 606 to exclude Juror Jordan's testimony
stating that she already decided to vote for the death
penalty before consulting with Pastor Lomax.
Given how Rule 606 limits the presentation of evidence
in these circumstances, it is especially important for us
to view the record practically and holistically when
considering the effect that a juror's misconduct
"reasonably may be taken to have had upon the jury's
decision." Kotteakos, 328 U.S. at 764. Doing so in this
case leaves us with "'grave doubt' about whether the
trial error had a 'substantial and injurious effect or
influence' on the [sentence]." Lawlor, 909 F.3d at 634.
Juror Jordan, a devoutly religious individual, was struck
by an attorney's assertion that she would go to hell if
she voted to impose the death penalty. She approached

her pastor [**18] and spiritual guide in the middle of jury
deliberations to obtain clarity on that very subject, and
he assured her that, contrary to the attorney's
arguments, her religious beliefs permitted her to vote for
the death penalty. Aware that other jurors had been
troubled by the attorney's remarks, she then spent up to
30 minutes discussing her pastor's counsel with the
entire jury and reading several Bible verses that he had
suggested out loud. Other members of the jury testified
[*535] that Juror Jordan shared the biblical passages
to rebut the attorney's religious statements and
"convince someone . . . it was ok" to impose the death
penalty.4 J.A. 2295. While Rule 606 deprives us the
benefit of "smoking gun" testimony,5 the natural
ramifications of this series of events are apparent.
Kotteakos does not require us to ignore them.6

4 The

dissent argues that Juror Weddington's statement that
she "guess[ed] [Juror Jordan] was trying to convince someone
. . . it was okay to give him the death penalty," J.A. 2295, is
speculative and therefore useless to our analysis. But we do
not think that the word "guess" voids Juror Weddington's
testimony of any value, especially when her testimony aligns
with other evidence indicating that Juror Jordan relayed Pastor
Lomax's message to the jury in order to refute the religious
statements made during closing arguments. Juror Peacock
agreed that it would "be fair to say that [Juror Jordan] brought
the Bible passages in to rebut Chambers' attorney's
argument." J.A. 2292. And the 1995 interview of Juror Jordan
conducted by Barnes' direct appeal team indicated that Juror
Jordan sought Pastor Lomax's counsel and relayed it to the
jury after noticing that another juror was visibly upset by the
closing arguments. Because Barnes' evidentiary hearing came
more than 20 years after he requested and was entitled to it,
we are left to grapple with decades-old recollections of only a
few jurors. We do not rely on Juror Weddington's testimony as
isolated evidence of prejudicial effect, but as part of a larger
and necessarily circumstantial body of evidence that speaks to
the substance of Juror Jordan's communication and its effect
on the jury.
5 See,

e.g., Fullwood, 290 F.3d at 679-80 (holding that under
Rule 606, habeas petitioner could not rely on an affidavit
stating that external influence caused a juror to vote for the
death penalty).
6 In

analyzing the effects that a private conversation
reasonably may be taken to have had on the jury's sentencing
decision, we are mindful of the profound distrust with which
courts regard an extraneous influence on any juror. See, e.g.,
Turner v. Louisiana, 379 U.S. 466, 473-74, 85 S. Ct. 546, 13
L. Ed. 2d 424 (1965) (concluding that defendant suffered
prejudice from officers' association with jurors in their charge
during a case for which the officers were key prosecution
witnesses and their testimony conflicted with that of the

8a

Page 8 of 17

938 F.3d 526, *535; 2019 U.S. App. LEXIS 27500, **18
The State urges us to consider Juror Jordan's testimony
that she had already decided to vote for the death
penalty before consulting with Pastor Lomax and only
consulted him to determine whether she would "burn in
hell" for that decision. J.A. 2272. Because this testimony
was elicited by Barnes' attorney, the State argues the
testimony is admissible [**19] under the "invited error"
doctrine. But even if we were to accept the State's
argument, our conclusion would not change. Juror
Jordan shared Pastor Lomax's counsel with the other
jurors in an apparent effort to "convince someone . . . it
was ok" to vote for the death penalty. J.A. 2295. And
taking Juror Jordan at her word that she had already
made up her mind, her testimony necessarily indicates
that the only reason to bring Pastor Lomax's views into
the jury room was to convince the other jurors to impose
the death penalty. In other words, Juror Jordan's state of
mind is not, alone, dispositive, and we may nonetheless
reasonably conclude that Pastor Lomax's external
influence affected the jury's decision.
Our dissenting colleague argues that Pastor Lomax's
communication with Juror Jordan was neutral as to the
death penalty and had no bearing on the jury's [*536]
ultimate decision. Evidence does not indicate, the
dissent argues, that the pastor provided a direct
recommendation as to Barnes' sentence or otherwise
"expanded the circumstances in which the jury could
lawfully impose the death penalty." But HN4[ ] a
prejudicial influence need not take the form of a third
party directly telling jurors [**20] how they should vote
or introducing new facts or law for their consideration.
See, e.g., Turner v. Louisiana, 379 U.S. 466, 473-74, 85
S. Ct. 546, 13 L. Ed. 2d 424 (1965) (holding that key
prosecution witnesses' association with jurors
throughout trial was prejudicial even though witnesses
did not discuss details of the case with jurors). An
improper external influence may include "an outside
influence upon the partiality of the jury, such as 'private
communication, contact, or tampering . . . with a juror.'"
Robinson, 438 F.3d at 363 (citing Remmer, 347 U.S. at

accused); Parker v. Gladden, 385 U.S. 363, 363-65, 87 S. Ct.
468, 17 L. Ed. 2d 420 (1966) (concluding that bailiff's comment
to two jurors that the "wicked fellow (petitioner), he is guilty"
and that "[i]f there is anything wrong (in finding petitioner
guilty) the Supreme Court will correct it" was not harmless);
Fullwood, 290 F.3d at 681 (noting that, if true, defendant's
allegations of juror misconduct may constitute actual prejudice
when juror's spouse pressured her throughout the trial to
impose the death penalty). This distrust is only amplified
when, as in this case, extraneous information is offered to the
entire jury.

229). Pastor Lomax's thoughts on whether the Bible
condones the death penalty—when, in urging jurors to
vote against that punishment, an attorney had just
insisted that it does not—constitutes an outside
influence on the jury's partiality.
It is also somewhat specious to suggest that the
message conveyed to the jury was neutral. Viewing the
evidence in context, we may readily discern the thrust
and objective of Pastor Lomax's conversation with Juror
Jordan, and hers with the rest of the jury. Pastor
Lomax's instruction that jurors would not go to hell if
they "live[d] by the laws of the land," J.A. 2271, served
to contradict the statements made by Chambers'
attorney that while North Carolina law allowed jurors to
impose the death penalty, God's law did [**21] not. It is
reasonable to conclude that, especially coming from a
figure of religious authority, Pastor Lomax's message
assuaged reservations about imposing the death
penalty that the attorney's comments may have instilled.
Further, the length of Juror Jordan's conversation with
the jury—up to 30 minutes in less than two full days of
deliberation—counsels against concluding that the
discussion had no effect on the jury's decision.
Finally, we are not convinced that the strength of the
State's case against Barnes precludes us from holding
that Barnes has shown actual prejudice. HN5[ ] The
focus of the harmless error inquiry is "not on the
sufficiency of the evidence absent the error, but rather
on the impact of the error on the jury's verdict."
Sherman, 89 F.3d at 1155 (Motz, J., concurring in part
and dissenting in part); see also Sullivan v. Louisiana,
508 U.S. 275, 279, 113 S. Ct. 2078, 124 L. Ed. 2d 182
(1993) ("Harmless error review looks . . . to the basis on
which the jury actually rested its verdict . . . not [to]
whether, in a trial that occurred without the error, a guilty
verdict would surely have been rendered.").
While the harmless error standard on habeas review is
stringent, it does not require virtual certainty to grant
relief. The testimony presented at the evidentiary
hearing was [**22] sufficient to leave us "in virtual
equipoise" as to whether the error had a substantial and
injurious effect on the jury's decision. Lawlor, 909 F.3d
at 634.

IV.
At this stage in the proceedings, Barnes has met his
evidentiary burdens as to both constitutional error and
actual prejudice. Therefore, we REVERSE the district

9a

Page 9 of 17

938 F.3d 526, *536; 2019 U.S. App. LEXIS 27500, **22
court's denial of habeas relief and REMAND for further
proceedings consistent with this opinion.
Dissent by: AGEE

Dissent
AGEE, Circuit Judge, dissenting:
To obtain relief under 28 U.S.C. § 2254, a state prisoner
must demonstrate actual prejudice. Barnes asserts that
he has satisfied his burden by showing: (1) after a
[*537] co-defendants' counsel argued the jurors would
go to hell if they imposed the death penalty, a juror
asked her pastor whether the Bible did indeed direct
that course if they decided to impose the death penalty;
(2) the pastor responded "no" and provided her with
Bible verses supporting the view that Christians are
called to follow the law of the land; and (3) the juror
shared her pastor's response and the Bible verses with
her fellow jurors during deliberations. The majority
agrees with Barnes and grants him habeas relief based
on its conclusion that this external communication may
have "assuaged reservations about [**23] imposing the
death penalty that the attorney's comments may have
instilled" and thus actually prejudiced Barnes'
sentencing. Maj. Op. 16. Because the record does not
support the majority's conclusion that the external
communication actually prejudiced Barnes, I respectfully
dissent.
I.
In 1992, Barnes and two other men robbed and killed
B.P. and Ruby Tutterow. In a joint jury trial held in North
Carolina state court, all three men were convicted on
two counts of first-degree murder, two counts of robbery
with a dangerous weapon, and one count of first-degree
burglary.
During closing arguments in the penalty phase of the
trial, counsel for one of Barnes' co-defendants urged the
jury not to impose the death penalty because although
state law permitted it, God's law prohibited that penalty.
Counsel argued that if the jurors were "true believer[s],"
they knew that one day God would hold them
accountable for their actions just as He would hold the
defendants
responsible.
J.A.
2374.
Counsel
admonished the jurors that they would want God to say
"Well done, my good and faithful servant. You have

done good things with your life. You have done good
deeds. Enter into the Kingdom of Heaven," and [**24]
that they would not want to have to justify their decision
to violate his commandment not to kill "because the
laws of man said I could." J.A. 2374.1
Following deliberation, the jury recommended the death
penalty for Barnes and one co-defendant—both of
whom were identified by the third co-defendant as the
individuals who shot the Tutterows—and mandatory life
imprisonment for the third co-defendant. The trial court
imposed the recommended sentences.
Just after the jury announced their sentencing decision,
Barnes' counsel informed the court that he had
discovered that one of the jurors spoke to a member of
the clergy "about a particular question as to the death
penalty." J.A. 1602. After counsel confirmed that he had
no evidence that the juror discussed "the particular facts
of this case with anybody outside the jury," the trial court
judge denied counsel's request to question the jury
about deliberations. J.A. 1602-03.
Barnes argued on both direct appeal and in his state
motion for appropriate relief that it was error for the trial
court not to investigate whether the sentencing
deliberations had been prejudiced by juror contact with
a third party. His claims were rejected at both
stages. [**25] State v. Barnes, 345 N.C. 184, 481
S.E.2d 44, 68 (N.C. 1997); J.A. 1882-83 (MAR court's
denial).
After exhausting his state remedies, Barnes filed a
petition under 28 U.S.C. § 2254 arguing that the state
court's adjudication of his juror misconduct claim was
contrary to or unreasonably applied Remmer v. United
States, 347 U.S. 227, 74 [*538] S. Ct. 450, 98 L. Ed.
654, 1954-1 C.B. 146 (1954), which held that "any
private communication, contact, or tampering . . . with a
juror during a trial about the matter pending before the
jury is . . . presumptively prejudicial" and warranted an
evidentiary hearing on that issue. Id. at 229. The district
court disagreed and denied relief, Barnes v. Lassiter,
No. 1:08-cv-00271, 2013 U.S. Dist. LEXIS 44355, 2013
WL 1314466 (M.D.N.C. Mar. 28, 2013), but on appeal a
majority of this Court agreed with Barnes that the state
court misapplied Remmer. Barnes v. Joyner, 751 F.3d
229 (4th Cir. 2014). As a consequence, the case was

1 For

reasons not apparent in the record, the prosecution did
not object to counsel's manipulation of the jury's religious
beliefs and the trial court gave no cautionary or limiting
instruction.

10a

Page 10 of 17

938 F.3d 526, *538; 2019 U.S. App. LEXIS 27500, **25
remanded to the district court for a determination of
whether actual prejudice resulted from the juror's thirdparty communication.
However, having concluded that Barnes was not entitled
to relief under the highly deferential standard of review
federal courts apply under the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), I
dissented from the majority's decision. Id. at 253 (Agee,
J., dissenting). That dissenting opinion explains why
"'fairminded jurists could disagree' as to whether the
communication Barnes alleges to have occurred [**26]
constituted juror contact with a third party 'about a
matter pending before the jury'" given that it "did not
directly bear upon how the juror would vote" in this case.
Id. at 266 (Agee, J., dissenting).2
On remand, the district court referred the case to a
magistrate judge to conduct the evidentiary hearing.
Barnes called three members of the jury as witnesses:
the juror who spoke with her pastor (Hollie Jordan) and
two jurors who recounted aspects of the jury
deliberations (Ardith Peacock and Leah Weddington).3
In sum, Juror Jordan testified that she approached her
pastor because she was concerned about the codefendants' closing argument that the jurors "would burn
in hell" if they imposed the death sentence. J.A. 2269.
Jordan testified that her pastor said the Bible taught that
"we had to live by the laws of the land" and "told [her]
some scriptures in the Bible" to support that view,
though she could not recall which verses he used. J.A.
2271. Juror Peacock also recalled that Jordan brought a
Bible into deliberations and read "several passages"

2 The

State petitioned for certiorari in the Supreme Court of the
United States. The Supreme Court denied certiorari, though
Justice Thomas wrote an opinion dissenting from the denial,
which Justice Alito joined. Joyner v. Barnes, 135 S. Ct. 2643,
192 L. Ed. 2d 944 (2015) (mem.). According to Justice
Thomas, the state court did not unreasonably apply Supreme
Court precedent in concluding that a question posed by a juror
to her minister "about the death penalty generally [] did not
discuss the facts of the case" and "did not concern the matter
pending before the jury" for purposes of applying Remmer. Id.
at 2647.
3 Barnes

also called as a witness his counsel from the direct
appeal, though as the magistrate judge noted in her report and
recommendation, the attorney testified less as a fact witness
than as an additional attorney's assessment of potential issues
for appeal. Neither party relies on her testimony.
The record also shows that Jordan's pastor, Tom Lomax, had
died prior to the district court proceedings.

from it, adding that she believed one verse had to do
with "the eye for an eye and tooth for a tooth," but she
was not sure what verses or books of [**27] the Bible
were read. J.A. 2281, 2292. Peacock testified that
Jordan "did not state that [the verses she read] were for"
or against the death penalty. J.A. 2290, 2292. Instead,
she characterized Jordan's statements as flowing from
"the closing argument . . . that one of the defense
attorneys had" given. J.A. 2290. According to Peacock,
Jordan read the Bible verses to "say[], you know, we are
doing our duty" as a rebuttal to the defense attorney's
contention that the Bible [*539] said they would go to
hell should they sentence the defendants to death. J.A.
2291-92. Juror Weddington remembered a female juror
reading from the Bible during deliberations, though she,
too, could not recall which verses were read. Nor did
Weddington testify to the context for the Bible reading.
When asked "what might have prompted the juror . . . to
bring the Bible into the jury room," Weddington replied,
"I guess she was trying to convince someone to — it
was okay to give [the defendants] the death penalty."
J.A. 2295.
The magistrate judge's report and recommendation
concluded Barnes' petition should be denied, finding any
error was harmless "because there was no actual
prejudice to [Barnes] since the jury verdict [**28] in this
case was not tainted by the third-party contact between
Juror Jordan and" her pastor. J.A. 2395. In particular,
the magistrate noted that the evidence did not show that
the juror's conversation with her pastor touched on the
appropriate punishment for any defendant in this case,
but rather centered on whether the Bible would ever
allow a devout juror to impose the death penalty. The
magistrate judge also pointed to the nature of Barnes'
crimes and the jury's decision to sentence two
defendants to death and one to life imprisonment as
confirmation that the verdicts were based on the proper
statutory facts before the jury rather than an improper
external influence.
The district court adopted the magistrate judge's report
and recommendation with only minor modifications, and
it denied Barnes' petition. Barnes v. Thomas, No.
1:08cv271, 2018 U.S. Dist. LEXIS 129932, 2018 WL
3659016 (M.D.N.C. Aug. 2, 2018). The district court
characterized as "speculation" Juror Weddington's
testimony that she "guess[ed]" Jordan's motive for
reading the Bible during deliberations was to advocate
for the death penalty. 2018 U.S. Dist. LEXIS 129932,
[WL] at *6. It pointed to the record evidence about the
nature of Jordan's conversation with her pastor and the
information shared with other jurors to support [**29]

11a

Page 11 of 17

938 F.3d 526, *539; 2019 U.S. App. LEXIS 27500, **29
the conclusion that neither the pastor nor Jordan
advocated for one sentence over another, noting that
the pastor's admonitions to follow the law of the land
were precisely what the trial court instructed the jurors
to do. And the district court recounted the strength of the
state's case against Barnes as further evidence of
harmlessness. Despite the court's confidence in its
conclusion, given that the case involved the death
penalty, it granted Barnes a certificate of appealability
"on the issue of whether the extraneous communication
between Juror Jordan and [her pastor] had a 'substantial
and injurious effect or influence in determining the jury's
verdict,' or rather was harmless." 2018 U.S. Dist. LEXIS
129932, [WL] at *11.
II.
To be eligible for relief, Barnes must satisfy AEDPA's
strict limits on when a federal court can grant relief to
state prisoners. First, he must exhaust his state court
remedies before being able to raise a claim in federal
court. 28 U.S.C. § 2254(b)(1). Second, he must show
that the state court's adjudication of the claim "resulted
in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States." § 2254(d)(1). And third, because [**30] "most
constitutional errors can be harmless," Arizona v.
Fulminante, 499 U.S. 279, 306, 111 S. Ct. 1246, 113 L.
Ed. 2d 302 (1991), he must demonstrate that the error
complained of caused actual prejudice. Fullwood v. Lee,
290 F.3d 663, 679 (4th Cir. 2002).
For the detailed reasons set out in my previous
dissenting opinion, I continue to adhere to the view that
Barnes'§ 2254 petition should be denied because it fails
at [*540] the second stage of inquiry: the state court's
adjudication of his juror misconduct claim did not involve
an unreasonable application of Remmer. Barnes, 751
F.3d at 253-66 (Agee, J., dissenting). But the panel
majority has held otherwise, and this appeal centers on
whether Barnes has cleared the third hurdle to obtaining
habeas relief by showing that the error was not
harmless: that is, that he suffered actual prejudice.
In the context of § 2254 proceedings, we apply the
harmless error standard from Brecht v. Abrahamson,
507 U.S. 619, 113 S. Ct. 1710, 123 L. Ed. 2d 353
(1993), which differs from the way harmlessness is
analyzed in review upon direct appeal. "Because of the
threat collateral attacks pose to finality, comity and
federalism, habeas petitions may secure the writ only if
the error actually prejudiced them." Bauberger v.

Haynes, 632 F.3d 100, 104 (4th Cir. 2011).4 In this
context, "actual prejudice" means showing that the error
"had a substantial and injurious effect or influence in
determining the jury's verdict." Fullwood, 290 F.3d at
679 (quoting Brecht, 507 U.S. at 637). In an "unusual"
case, the question [**31] of whether a substantial or
injurious effect or influence may be "so evenly
balanced" that the Court is in "grave doubt" as to the
harmlessness of an error; in that case, the Court should
grant the § 2254 petition. Bauberger, 632 F.3d at 104.
But in the ordinary case, the Court can assess the error
and determine whether the defendant has demonstrated
actual prejudice. See id. In the context of errors that
occur during the sentencing phase of a death penalty
case, the question before the Court is whether the error
had a "substantial and injurious effect or influence on
the jury's decision to sentence [the defendant] to death."
See Tuggle v. Netherland, 79 F.3d 1386, 1393 (4th Cir.
1996).
The evidence Barnes developed in the district court
does not demonstrate actual prejudice for at least three
reasons: (1) the third-party communication was neutral
concerning how Barnes should be sentenced; (2) the
communication did not alter the facts or the law that the
jury was instructed to use in deciding how to sentence
Barnes; and (3) the communication does not bear any
other hallmarks of having had a substantial or injurious
effect or influence on the deliberative process.
A.
Barnes first fails to demonstrate actual prejudice
because the external communication that occurred in
this [**32] case did not relate to what sentence the jury
should impose for Barnes' crimes. Put another way, the
nature of the communication was of such a neutral and
tangential nature to the issue before the jury that it could
not have had an "injurious effect or influence" on the
jury's sentencing decision. Brecht, 507 U.S. at 627.
The Supreme Court has recognized that "it is virtually
impossible to shield jurors from every contact or
influence that might theoretically affect their vote." Smith
v. Phillips, 455 U.S. 209, 217, 102 S. Ct. 940, 71 L. Ed.
2d 78 (1982). This means that when assessing
instances of improper jury communication with a thirdparty, the Court must ensure that the defendant was
tried by a "jury capable and willing to decide the case
solely on the evidence before it." Id.; see also Rushen v.

4 Here,

and throughout the opinion, I have omitted internal
quotation marks, alterations, citations unless otherwise noted.

12a

Page 12 of 17

938 F.3d 526, *540; 2019 U.S. App. LEXIS 27500, **32
Spain, 464 U.S. 114, 118-120, 104 S. Ct. 453, 78 L. Ed.
2d 267 (1983). Consequently, not every improper
communication between a juror and non-juror is actually
prejudicial to a defendant. Sometimes, the nature of the
[*541] conversation will readily reveal whether it was
innocuous—e.g., a salutation—or injurious—e.g.,
opinion about guilt.
Based on this understanding, courts have recognized
that a petitioner may be able to satisfy his burden of
showing actual prejudice when one or more jurors is
exposed to a non-juror's opinion about the defendant's
guilt or punishment. [**33] Indeed, the Supreme Court
has stated that "it would be blinking reality not to
recognize the extreme prejudice inherent" when a court
employee offers his opinion about the defendant's
culpability to the jurors. Parker v. Gladden, 385 U.S.
363, 365, 87 S. Ct. 468, 17 L. Ed. 2d 420 (1966) (per
curiam). Specifically, in Parker, a bailiff assigned to a
jury told several jurors, "Oh that wicked fellow
(petitioner), he is guilty" and later said to another juror
that "[i]f there is anything wrong (in finding petitioner
guilty) the Supreme Court will correct it." Id. at 363-64 .
Along this line, the U.S. Court of Appeals for the Ninth
Circuit has recognized that although "not every incident
of a juror's ex parte contact with friends or relatives
would constitute actual prejudice to a defendant," a
habeas petitioner had demonstrated actual prejudice
when a juror engaged in "active[] discuss[ions]" about
the case with her friends and those friends "presented . .
. strong opinions concerning the proper outcome of [the
defendant's case]." United States v. Maree, 934 F.2d
196, 202 (9th Cir. 1991) abrogated on other grounds by
United States v. Adams, 432 F.3d 1092 (9th Cir. 2006).
In contrast to the bailiff in Parker and the juror's friends
in Maree, the record developed in the district court here
is unequivocal that Juror Jordan's pastor did not provide
his opinion regarding an appropriate [**34] sentence for
Barnes or comment on any of the evidence or law
relevant to the jury's deliberations. This was so because
Jordan did not ask her pastor's "advice or counsel about
the case" and only asked him about "the closing
argument as far as . . . if they got the death sentence for
what they did and we sentenced them to death, were we
going to die because we're killing them." J.A. 2272. She
solicited her pastor's view on the narrow issue of
whether the Bible said jurors could go to hell if they
decided to sentence the defendants to death. Jordan
repeatedly stated, without contradiction, that she did not
seek her pastor's advice about the case or how she
should vote. J.A. 2275-76 ("The only thing [that led me
to talk to him] was as far as burning in hell. That's the

only reason I went and talked to him."). There is no
record evidence to the contrary.
The pastor's response was similarly limited: that jurors
would not be condemned to hell for their sentencing
decision because the Bible did not teach that view.
Instead, the pastor noted the Bible instructed Christians
to "live by the laws of the land." J.A. 2273. Pastor
Lomax provided Jordan with a few Bible verses to
support that view. [**35] Most importantly, at no time
did the pastor lead Jordan to believe "the Bible
supported [or] didn't support the death penalty," or give
his view in any way as to the disposition of Barnes'
case. J.A. 2273. Jordan relayed the same information to
other jurors at the next day's deliberations.
Juror Peacock's testimony wholly supports Jordan's
testimony on this point, reiterating that Jordan did not
use the pastor's comments or the Bible verses to
support or oppose the death penalty for Barnes or any
of the other defendants.5
[*542] Juror Weddington's testimony does not alter this
analysis. Her recollections were hazy and not welldeveloped, as she testified only that a female juror had
read from the Bible during deliberations and did not
provide any testimony connecting the juror's comments
to a conversation with her pastor. When asked what
might have prompted the juror to read from the Bible,
Weddington speculated, "I guess she was trying to
convince someone to — it was okay to give him the
death penalty." J.A. 2295 (emphasis added). But
guesses are not evidence. The Mattano, 52 F. 876, 880
(4th Cir. 1892) ("[L]oose conjecture is not testimony.");
see also U.S. Steel Min. Co. v. Director, Office of
Workers' Comp. Programs, U.S. Dep't of Labor, 187
F.3d 384, 390 (4th Cir. 1999) (noting the words used in
the testimony—"it is possible that it could"—
rendered [**36] the testimony "entirely speculative").

5 Given

that none of the witnesses could recall where in the
Bible the verses originated, Peacock's recollection that one
verse had to do with an "eye for an eye and tooth for a tooth"
is of limited evidentiary value. J.A. 2281. The phrase appears
in both the Old and New Testaments, and in the New
Testament appearance the phrase is followed by the
admonition "But I say unto you, That ye resist not evil: but
whosoever shall smite thee on they right cheek, turn to him the
other also." Matthew 5:38-39; see Hurst v. Joyner, 757 F.3d
389, 392 n.1 (4th Cir. 2014) (discussing the four appearances
of the phrase in the Christian Bible); Robinson v. Polk, 438
F.3d 350, 358 n.8 (4th Cir. 2006) (same).

13a

Page 13 of 17

938 F.3d 526, *542; 2019 U.S. App. LEXIS 27500, **36
Unable to recall details of Jordan's communication,
Weddington provided no factual information about
Jordan's statements during the deliberations that would
allow for a factfinder to conclude that her "guess" was
based on any reasonable impression formed from
witnessing the events in question. Specifically,
Weddington did not identify which female juror read
from the Bible, what Bible verses were read, or whether
they were from the Old or New Testament, and she did
not provide any testimony regarding what else the juror
said besides reading from the Bible. Juror Weddington
thus offered no basis for connecting her "guess" about
the juror's motive to what the juror did. At bottom,
Weddington acknowledged she was "guess[ing]" at a
reason and the district court properly took her at her
word when it concluded Weddington's statement was
speculative and thus not evidence of actual prejudice.
J.A. 2443-45. The majority errs in relying on her
conjecture as a basis for granting Barnes relief.
Further, the majority opinion simply ignores the
uncontested fact that no witness—none—testified that
Pastor Lomax said anything that attempted to influence
Juror Jordan [**37] (directly) or another juror (indirectly)
as to the merits of what sentence Barnes should receive
under North Carolina law. Unlike the bailiff's express
opinion of guilt in Parker or the friends' open discussion
of the case in Maree, the external communication that
occurred in this case did not address the merits of the
case nor did it expose Juror Jordan or any other juror to
a third-party's view of the evidence or the appropriate
sentence.
While
an
inappropriate
third-party
communication occurred, it was unrelated to the
question of what sentence Barnes should receive and
thus could not have prejudiced him by affecting or
influencing the jury's decision making.
Courts have held that when a communication, as that
here, is innocuous or not about the decision the jury
must make, the error has not actually prejudiced the
defendant even when the communication was
tangentially related to the case. E.g., Rushen, 464 U.S.
at 118-19 (concluding no prejudice arose from juror's ex
parte communication with trial judge concerning juror's
personal acquaintance with a prior victim of the
defendant because judge had ensured juror could still
be impartial during deliberations); Crease v. McKune,
189 F.3d 1188, 1190, 1192-94 (10th Cir. 1999) (holding
petitioner [*543] had not demonstrated actual [**38]
prejudice when a juror had an ex parte conversation
with the judge during which she expressed discomfort
with state law and the judge reiterated several jury
instructions and "admonished her according to the jury

instructions that she cannot allow prejudice and
sympathy to enter into her deliberation" because the
judge did not pressure her to vote to convict or suggest
how she should vote); United States v. Endicott, 869
F.2d 452, 454, 457 (9th Cir. 1989) (concluding that no
actual prejudice resulted from contact between a juror
and a government witness where the juror complained
to the witness that the defendants were "guilty," but "we
will have to listen to all the rest of the b.s." because the
exchange was "inconsequential"); United States v. Day,
830 F.2d 1099, 1103-07 (10th Cir. 1987) (holding no
actual prejudice where a juror and a government
witness engaged in "a casual, time-of-the-day greeting"
about how the juror was "holding up" and that the
testimony "may put you to sleep"); see also United
States v. Davis, 51 F.3d 269, 1995 WL 139323, *3 (4th
Cir. 1995) (unpublished table decision) (holding
defendant failed to demonstrate actual prejudice when a
juror asked the government's case agent what the
Bureau of Alcohol, Tobacco, and Firearms did because
"the conversation had not involved the merits of the
pending case").
As in the cases cited above, Barnes has failed to [**39]
demonstrate that the conversation between Juror
Jordan and her pastor, by its nature, had a substantial
and injurious effect or influence on his being sentenced
to death. The communication involved a topic tangential
to the jury's assessment of the law and facts relevant to
the sentencing determination. At no point did the pastor
communicate his views about Barnes, Barnes' codefendants, or the case itself. Nor did he even mention
the Bible's views of the death penalty generally, or
under what circumstances the Bible may allow for such
a sentence. Because Jordan's conversation with her
pastor did not advocate for or against the death penalty
in general—let alone as the appropriate punishment for
Barnes—it could not have swayed her own or any other
juror's decision about how to sentence Barnes. Thus, as
many courts considering similarly tangential ex parte
communications have concluded, an innocuous
conversation like Jordan's with her pastor could not
have not actually prejudiced Barnes.
The majority opinion's contrary conclusion stems from
multiple missteps. At the outset, it draws the specious
conclusion that the third-party communication
advocated for the death penalty: a conclusion [**40]
wholly without support in the record. That conclusion
ignores the entirety of the testimony concerning what
the pastor said: first, that jurors would not go to hell if
they voted to impose the death penalty, and, second,
that the Bible said individuals should follow the law of

14a

Page 14 of 17

938 F.3d 526, *543; 2019 U.S. App. LEXIS 27500, **40
the land. These statements are neutral on the question
of how Barnes should be sentenced. What is more, the
majority's conclusion contradicts the testimony of both
Juror Jordan and Juror Peacock that the information
relayed directly or indirectly from the pastor did not
advocate for or against the death penalty.
Given that the pastor's comments could not possibly
have been injurious to Barnes, the communication that
occurred in this case could not have had a prejudicial
effect or influence on the verdict. But after the majority
opinion manipulates the communication into a broadly
pro-death penalty influence, it then excuses Barnes for
failing to prove that aspect of actual prejudice by
blaming Federal Rule of Evidence 606. But this rule
offers no refuge. Rule 606 codifies the common-law
prohibition of admitting juror testimony to impeach a jury
verdict. Fed. R. Evid. 606(b)(1) ("During [*544] an
inquiry into the validity of a verdict or indictment, a juror
may not testify about [**41] . . . the effect of anything on
that juror's or another juror's vote; or any juror's mental
processes concerning the verdict or indictment."). An
exception to that rule found in both the federal and
North Carolina rules of evidence allows jurors to testify
as to "whether extraneous prejudicial information [that
has been] improperly brought to the jury's attention or
whether any outside influence was improperly brought
to bear upon any juror." Robinson, 438 F.3d at 360 n.10
(citing Fed. R. Evid. 606(b); N.C. Gen. Stat. § 8C-1,
Rule 606(b)). This exception allowed Barnes to garner
evidence concerning Juror Jordan's communication with
her pastor and her conveyance of that information to the
jury.
But Barnes' problem demonstrating actual prejudice did
not arise from his inability to present witnesses who
could confirm that they were persuaded to vote for the
death penalty as a result of Juror Jordan's conversation
with her pastor. Rather, Barnes' claim falters because
he has an objective failure of proof that the
communication exposed Jordan or another juror to a
third party's opinion that they should sentence Barnes to
death. Unlike the instances where the subject matter of
the communication had a clear analytical bridge to the
prejudicial effect or influence, the communication [**42]
in this case touched on a different topic. The majority
can only reach a contrary conclusion by misrepresenting
what the conversation entailed and then speculating
about its unproven influence on a juror. That reasoning
falls far short of proof of actual prejudice and is contrary
to the record.
B.

Barnes also failed to demonstrate actual prejudice
because the external communication did not materially
alter the facts or law by which the jurors were to
determine Barnes' sentence. As the district court
explained,
[i]n the absence of additional evidence that either
Pastor Lomax or Juror Jordan employed Bible
verses to actively encourage jurors to impose the
death penalty, the logical conclusion is that the
extraneous influence encouraged the jurors to
decide the case based on the facts presented and
the law of North Carolina and not based on the
religious constraints defense counsel sought to
impose. This weighs against any finding that the
extraneous influence had a substantial and
injurious effect or influence in determining the jury's
verdict.
Barnes, 751 F.3d 229, 2018 WL 3659016, at *7.
Conversely, a defendant could establish actual
prejudice by showing external influences that alter the
facts being considered during deliberations. [**43] For
example, courts have held that a petitioner may be able
to satisfy the Brecht standard when the jury considers
inculpatory evidence that was not presented at trial.
E.g., Sassounian v. Roe, 230 F.3d 1097, 1108-12 (9th
Cir. 2000) (holding actual prejudice was shown when
jury considered a telephone call that had not been
discussed during the trial and which related to the
defendant's motive); Bonner v. Holt, 26 F.3d 1081, 1084
(11th Cir. 1994) (holding the defendant was actually
prejudiced when jury returned a verdict of guilt only after
learning that the defendant was a habitual offender, a
fact that was not introduced at trial); Marino v. Vasquez,
812 F.2d 499, 506 (9th Cir. 1987) (observing that
petitioner had established actual prejudice because
there was "a direct and rational connection between the
extrinsic material" and the jury's verdict when the jury
engaged in an "unauthorized out-of-court experiment
with [a] gun [that] relate[d] to the defense theory of selfdefense, which was a material element"); cf. Dorsey v.
Quarterman, 494 F.3d 527, 531-32 [*545] (5th Cir.
2007) (holding the defendant did not experience actual
prejudice when jurors inadvertently received an
unedited transcript that contained information about the
defendant's prior bad acts because jurors "were
questioned to insure that they would disregard the
material" and "be impartial" during deliberations and the
evidence
against [**44]
the
defendant
was
overwhelming). Of course, there's no evidence in this
case—none—that Juror Jordan conversation with her

15a

Page 15 of 17

938 F.3d 526, *545; 2019 U.S. App. LEXIS 27500, **44
pastor exposed any juror to any new facts that might be
relevant to his sentence or shed a different light on the
known facts.
Separately, external influences that materially alter the
legal standard the jury uses to deliberate may establish
actual prejudice. E.g., Marino, 813 F.2d at 506
(observing that petitioner established actual prejudice
because there was a "direct and rational connection
between the extrinsic material" and the jury's verdict
when the jury consulted a dictionary definition that
changed the meaning of the offense's material element
in dispute).
But where the external influence did not materially alter
the jury's understanding of the circumstances in which it
could reach its verdict, that influence—even when it
changed the jury's comprehension of a material legal
element—did not rise to the level of being actually
prejudicial. In Bauberger, we held that the petitioner had
not demonstrated actual prejudice for purposes of §
2254 arising from the jurors' decision to review
"dictionary definitions of several words in the judge's
instructions." 632 F.3d at 102.6 In relevant part, that jury
was [**45] tasked with determining whether Bauberger
was guilty of second-degree murder and the only
disputed element in the case was whether he had acted
with "malice." The court instructed the jurors:
Malice is a necessary element which distinguishes
second degree murder from manslaughter. Malice
arises when an act which is inherently dangerous to
human life is intentionally done so recklessly and
wantonly as to manifest a mind utterly without
regard for human life and social duty and
deliberately bent on mischief.
Id. at 105. On a lunch break, the jury foreperson
obtained a dictionary and, when deliberations resumed,
read several of its definitions to other jurors, including
the terms "recklessly"—defined as "lack of due
caution"—and
"wantonly"—defined
as
"arrogant
recklessness of justice or the feelings of others." Id. at
105-06. Later that day, the jury convicted Bauberger of
second-degree murder. In his § 2254 petition,
Bauberger argued that the jury's decision to consult the

6 Although

third-party communications differ from other sorts of
external influences on a jury for certain aspects of the
analysis, see United States v. Lawson, 677 F.3d 629, 644 (4th
Cir. 2012), both could demonstrate actual prejudice if they
resulted in an alteration to the legal standard by which the jury
weighed the evidence.

dictionary during deliberations had a substantial and
injurious effect because one or more jurors may have
relied on those definitions, which he contended lowered
the government's burden of proving malice as defined
by the law.
The Court disagreed, [**46] concluding that the
definitions of malice "even as possibly modified by the
definitions the jurors consulted, fully conveyed the
essence of North Carolina law concerning malice." Id. at
107. In short, we held that "Bauberger's verdict was not
substantially and injuriously affected by the dictionary's
definition of 'recklessly' because the altered instruction
as a whole remained materially equivalent to the one
given by the judge." Id. The Court reached the same
conclusion regarding the jury's consideration of the term
[*546] "wantonly," explaining that "[a]ny modification of
the instruction that came about by virtue of the
dictionary's definition of 'wantonly' did not materially
affect that instruction's malice standard." Id. Lastly, the
Court "look[ed] to the strength of the evidence in
assessing whether the dictionary use substantially and
injuriously affected Bauberger's verdict," concluding that
because the evidence on this element was "not likely a
close one," meaning that "it is less likely that the error
impacted the jury's decision." Id. at 108.
Bauberger counsels that the external communication in
this case, which related to the jury's decision far less
than the unauthorized use of a dictionary in
Bauberger [**47] did, could not have substantially and
injuriously affected Barnes' sentence. As discussed,
Juror Jordan's pastor relayed two thoughts that Jordan
then shared with the jury: that the Bible commanded
jurors to follow "the laws of the land" and that the Bible
did not say that jurors would go to hell if they decided to
impose the death penalty. J.A. 2271. While those
positions countered the co-defendants' closing
argument, they were fully consistent with the jurors' duty
in making their sentencing decision: to sentence Barnes
based on North Carolina's capital sentencing criteria,
not the Bible's view for or against the death penalty. The
external communication that occurred in this case—
while inappropriate—neither introduced an improper
consideration into the deliberative process nor
expanded the circumstances in which the jury could
lawfully impose the death penalty.
Simply put, the view that jurors must follow the law of
the land—regardless of their personal convictions
regarding the morality of the death penalty—
corresponds precisely with federal and state law
establishing a juror's sworn obligation during

16a

Page 16 of 17

938 F.3d 526, *546; 2019 U.S. App. LEXIS 27500, **47
deliberations. Jurors in a capital case are charged with
determining an appropriate [**48] sentence based on
the legally relevant factors as applied to the facts of the
case. See, e.g., Turner v. Louisiana, 379 U.S. 466, 47273, 85 S. Ct. 546, 13 L. Ed. 2d 424 (1965). To that end,
prospective jurors can be questioned and excused for
cause if they hold any views that would "prevent or
substantially impair the performance of his duties as a
juror in accordance with his instructions and his oath."
Wainwright v. Witt, 469 U.S. 412, 424, 105 S. Ct. 844,
83 L. Ed. 2d 841 (1985); see also N.C. Gen. Stat. §
15A-1212(8) (stating that jurors can be challenged for
cause on the ground that the juror "[a]s a matter of
conscience, regardless of the facts and circumstances,
would be unable to render a verdict with respect to the
charge in accordance with the law of North Carolina");
Robinson, 444 F.3d at 226 (Wilkinson, J., concurring in
denial of rehearing en banc) ("Courts have always
recognized that jurors' personal convictions, including
religious ones, may impede the dutiful performance of
their momentous responsibility."). In addition, North
Carolina courts have "repeatedly cautioned counsel that
they should base their jury arguments solely upon the
secular law and the facts," although various arguments
invoking the Bible have been held not to so infect a trial
with unfairness as to violate a defendant's due process
rights. State v. Lloyd, 354 N.C. 76, 552 S.E.2d 596, 62425 (N.C. 2001); see also State v. Williams, 350 N.C. 1,
510 S.E.2d 626, 643 (N.C. 1999) ("Our trial courts must
vigilantly ensure that counsel [**49] for the State and
for defendant do not distract the jury from its sole and
exclusive duty to apply secular law.").
Juror Jordan's conversation with her pastor, which she
relayed to the other jurors, reinforced the very
framework by which the jurors had already been
instructed to use when assessing a proper sentence: to
rely solely on North Carolina's sentencing criteria.
[*547] The same conclusion can be drawn from the
comment that the Bible did not say jurors would go to
hell if they decided to impose the death penalty. As with
the earlier statement, this communication did not
expand the circumstances in which the jury could
sentence Barnes to death under North Carolina law.
Instead, it directed the jurors to follow their obligation to
review the relevant factors under North Carolina law and
determine whether the circumstances of Barnes' case
warranted death or life imprisonment. In sum, the
external communication mitigated the argument by
Barnes' co-defendant's counsel that the jurors would
face eternal damnation, but mitigating that argument did
not implicate the jury's duty during deliberations: to

determine an appropriate sentence for Barnes based on
the facts and North Carolina law.
As [**50] was true in Bauburger, the external
communications that occurred in this case were
consistent with "the essence of North Carolina law"
concerning the jurors' sentencing options and did not
"materially affect[]" that standard. Bauberger, 632 F.3d
at 107. Because the external communication at issue
here did not lead the jury to consider additional facts or
incorrect law in making its sentencing determination, the
communication did not have an injurious effect or
influence on that process. Absent this influence, the
admonition to jurors to follow their sworn duty cannot
support a finding of actual prejudice.
C.
Additional factors reinforce the conclusion that Barnes
was not actually prejudiced as a result of the external
communication between Juror Jordan and her pastor,
including: the comparatively short duration of the
communication, the jury's split sentencing decision
between the three co-defendants, and the jury's specific
findings in the penalty phase.
Courts have considered the timing and duration of any
error as part of their actual prejudice assessment.
Fitzgerald v. Greene, 150 F.3d 357, 366 (4th Cir. 1998)
(concluding no actual prejudice had resulted from a
juror's statement the defendant claimed to demonstrate
implied bias because when the statement was
made, [**51] the jury had already voted to convict the
defendant and recommended the death penalty for one
charge); Marino, 812 F.2d at 506 (noting that the "length
of time [extrinsic material] was available to the jury," "the
extent to which the [jury] discussed and considered it,"
and when the material was introduced and "at what
point in the deliberations" were all factors to be
considered as part of the total actual prejudice
assessment). Here, Juror Jordan's conversation with her
pastor lasted only a "few minutes" during a substantially
longer conversation with him about other matters. J.A.
2271. Then, during deliberations that spanned more
than one day, Juror Jordan spent "15 to 30 minutes"
discussing the view that Christians were to "live by the
laws of the land" and "read[ing] the Bible verses to
them" that her pastor had given to her. J.A. 2273-75. All
told, there is no evidence that the pastor's comments
concerning the Bible's instruction to follow the law of the
land took a place of prominence during the deliberative
process. Nor is there any indication, as has been
present in other cases, that this discussion occurred at a

17a

Page 17 of 17

938 F.3d 526, *547; 2019 U.S. App. LEXIS 27500, **51
critical juncture—such as between a deadlocked jury
and final verdict—in the deliberations. [**52] E.g.,
Marino, 812 F.2d at 506; Bulger v. McClay, 575 F.2d
407, 411-12 (2d Cir. 1978)(relying in part on the jury's
"difficulty in reaching a verdict" before being exposed to
extra-record information as the basis for concluding the
error "may well have been determinative" to the verdict).
Courts have also looked to the strength or weakness of
the prosecution's case when [*548] assessing whether
an error had a substantial and injurious effect or
influence. Jones v. Angelone, 94 F.3d 900, 909 n.10
(4th Cir. 1996) (observing that this factor is relevant to
determining whether the error was "substantial"); accord
Broom v. Mitchell, 441 F.3d 392, 412 (6th Cir. 2006);
Malicoat v. Mullin, 426 F.3d 1241, 1250-52 (10th Cir.
2005). Given that the decision to impose the death
penalty involves a level of subjective assessment that is
not present when assessing guilt in the first instance, I
recognize that this factor has a limited utility.
Nonetheless, when combined with the reasons already
discussed and the following aspects of the sentence
deliberations, there is no room for any "grave doubt" as
to the harmlessness of the external communication that
occurred in this case.
First, the jurors returned different sentences for the
three co-defendants. As noted, the jury was deliberating
the appropriate sentence for Barnes and his two codefendants at the same time. All three men could have
received the death penalty. But the jurors decided
that [**53] only Barnes and one co-defendant should
receive the death penalty, while they sentenced the
second co-defendant to life imprisonment. This
determination reflects that the jurors understood their
duty to individually assess the appropriate punishment
for each defendant, as consistent with the jury
instructions. Moreover, they imposed the death penalty
against the two individuals (including Barnes) who had
been identified by a co-defendant as the individuals who
actually shot the victims, while imposing a life sentence
against the third co-defendant, who had participated in
the robbery scheme and was present during the
murders. This, too, reflects that the jurors imposed a
sentence based on their view of the defendants' relative
culpability in the murders as opposed to a Biblical
mandate for or against the death penalty.
Second, the jurors returned an individualized
assessment of mitigating and aggravating factors for
Barnes based on North Carolina's capital sentencing
criteria. Part of the jury's deliberations in the penalty
phase required them to find specific mitigating and

aggravating factors under North Carolina law. They
found 10 mitigating factors and 4 aggravating factors
relevant [**54] to their decision to sentence Barnes to
death. As the district court noted, the mitigating factors
"related primarily to [Barnes'] childhood," while the
aggravating factors focused on Barnes' criminal
conduct, including the pecuniary motive for the murders,
that it was part of a course of violent criminal conduct,
and its "especially heinous, atrocious, or cruel" nature.
J.A. 2452.
In sum, these additional factors reinforce the conclusion
that the jury was "capable and willing to decide the case
solely on the evidence before it" as opposed to having
been swayed by the improper communication between
Juror Jordan and her pastor. McDonough Power Equip.,
Inc. v. Greenwood, 464 U.S. 548, 554, 104 S. Ct. 845,
78 L. Ed. 2d 663 (1984).
****
Considering the nature of the external communication
that occurred in this case alongside the proceedings as
a whole, no "grave doubt" exists as to the harmlessness
of the error. Bauberger, 632 F.3d at 104. To the
contrary, Barnes simply did not satisfy his burden of
demonstrating actual prejudice, and the district court did
not err in denying his § 2254 petition.
III.
For the reasons set forth above, I would affirm the
judgment of the district court. Therefore, I respectfully
dissent.

End of Document

18a

Neutral
As of: May 13, 2020 8:56 PM Z

Barnes v. Thomas
United States Court of Appeals for the Fourth Circuit
December 18, 2019, Filed
No. 18-5
Reporter
2019 U.S. App. LEXIS 37725 *

WILLIAM LEROY BARNES, Petitioner - Appellant v.
EDWARD THOMAS, Warden, Central Prison, Raleigh,
North Carolina, Respondent - Appellee

Judges: WYNN, Circuit Judge, concurring in the denial
of rehearing en banc. WILKINSON, Circuit Judge, with
whom NIEMEYER, Circuit Judge, joins, dissenting from
the denial of rehearing en banc. AGEE, Circuit Judge,
with whom NIEMEYER, Circuit Judge, joins, dissenting
from the denial of rehearing en banc.

Prior History: [*1] 1:08-cv-00271-TDS-JEP.

Barnes v. Thomas, 938 F.3d 526, 2019 U.S. App.
LEXIS 27500 (4th Cir. N.C., Sept. 12, 2019)

Opinion
ORDER

Core Terms

The court denies the petition for rehearing and
rehearing en banc.

jurors, death penalty, sentencing, law of the land, en
banc, conversation, verses, deliberations, actual
prejudice, injurious effect, state court, courts, dissenting
opinion, burn, religious, fellow, views, appropriate
sentence, no evidence, co-defendant, third-party,
relayed

A requested poll of the court failed to produce a majority
of judges in regular active service and not disqualified
who voted in favor of rehearing en banc. Chief Judge
Gregory, Judge Motz, Judge King, Judge Keenan,
Judge Wynn, Judge Diaz, Judge Floyd, Judge Thacker,
and Judge Harris voted to deny rehearing en banc.
Judge Wilkinson, Judge Niemeyer, Judge Agee, Judge
Richardson, Judge Quattlebaum, and Judge [*2]
Rushing voted to grant rehearing en banc.

Counsel: For WILLIAM LEROY BARNES, Petitioner Appellant: George Bullock Currin, Raleigh, NC; M.
Gordon Widenhouse, Jr., Chapel Hill, NC.
For EDWARD THOMAS, Warden, Central Prison,
Raleigh, North Carolina, Respondent - Appellee:
Jonathan Porter Babb, Sr., Special Deputy Attorney
General, NORTH CAROLINA DEPARTMENT OF
JUSTICE, Raleigh, NC; Josh Stein, OFFICE OF THE
ATTORNEY GENERAL OF NORTH CAROLINA,
Raleigh, NC.

Judge Wynn submitted a statement concurring in the
denial of rehearing en banc. Judge Agee and Judge
Wilkinson each submitted statements dissenting from
the denial of rehearing. These statements are attached
to this order.
Entered at the direction of Judge Floyd.
Concur by: WYNN

Concur

19a

Page 2 of 7

2019 U.S. App. LEXIS 37725, *2

WYNN, Circuit Judge, concurring in the denial of
rehearing en banc:
The question in this case is whether juror misconduct—
seeking the religious advice of a pastor about the death
penalty during jury deliberations and then relaying that
communication to fellow jurors—had a substantial and
injurious effect or influence on the jury's decision to
impose the death penalty on Petitioner Barnes. The
question is not what legal standard applies. See Brecht
v. Abrahamson, 507 U.S. 619, 638, 113 S. Ct. 1710,
123 L. Ed. 2d 353 (1993) ("[W]e hold that the Kotteakos
[v. United States, 328 U.S. 750, 66 S. Ct. 1239, 90 L.
Ed. 1557 (1946)] harmless-error standard applies in
determining whether habeas relief must be granted
because of constitutional error of the trial type."). And
the question is not whether this Court's previous
decision in Barnes' favor was incorrect. Barnes v.
Joyner, 751 F.3d 229 (4th Cir. 2014) (hereinafter Barnes
I). And the question is not whether, systemically, federal
courts grant too much habeas relief. Habeas relief does
not operate on a quota system.
Again, to be [*3] absolutely clear: The question in this
case is whether juror misconduct—seeking the religious
advice of a pastor about the death penalty during jury
deliberations and then relaying that communication to
fellow jurors—had a substantial and injurious effect or
influence on the jury's decision to impose the death
penalty on Petitioner Barnes.
The facts show that it did.
The panel majority opinion presented a compelling
account of what transpired. In a North Carolina court, a
jury found Petitioner Barnes guilty of first-degree
murder. Barnes v. Thomas, 938 F.3d 526, 529 (4th Cir.
2019) (hereinafter Barnes II). At closing arguments in
the sentencing phase, an attorney representing a codefendant argued that the jury, if it imposed the death
penalty, would be judged by God for violating one of the
ten commandments, specifically, "Thou shalt not kill." Id.
(quoting J.A. 1532). One of the jurors, Hollie Jordan,
was offended by the argument and saw that another
juror looked upset. Id. at 530. After the first day of
deliberations, before the jury had reached a decision,
Juror Jordan discussed the case—including a
discussion of pictures of the crime scene—with her
pastor and asked if the jurors would "burn in hell" if they
imposed a death sentence. Id. at 531 (quoting [*4] J.A.
2269). She asked this question despite allegedly having

already decided to vote for the death sentence.1 Id. at
532. The pastor replied that the jurors would not burn in
hell, gave her Bible verses to support his opinion, and
told Juror Jordan that the jurors "had to live by the laws
of the land." Id. at 531-32 (quoting J.A. 2271).
The very next day, Juror Jordan spoke with her fellow
jurors about her conversation with the pastor. Id. at 532.
She relayed to them that they would not "burn in hell,"
and she read the Bible verses her pastor had
suggested. J.A. 2274. Another juror testified that she
thought Juror Jordan "was trying to convince someone
to -- it was okay to give him the death penalty."2 J.A.
2295. The jury subsequently voted to impose the death
penalty.
The unmistakable import of these facts is that Juror
Jordan sought out her pastor's opinions about the death
penalty and then presented those opinions to her fellow
jurors for the purpose of influencing another juror's vote.
She solicited an authoritative outside opinion about
sentencing, and the pastor gave her one. The prejudice
is clear and meets the standard of "grave doubt" and
"virtual equipoise." Barnes II, 938 F.3d at 534, 536
(quoting Lawlor v. Zook, 909 F.3d 614, 634 (4th Cir.
2018)).
Nevertheless, the dissent contends that [*5] "the record
here shows only a conversation that did not touch upon
Barnes' guilt or the appropriate sentence." Dissent of
Agee, J., infra at 14. The argument is that the pastor's
communication was "of such a neutral and tangential
nature to the issue before the jury that it could not have
had an 'injurious effect or influence' on the jury's
sentencing decision." Barnes II, 938 F.3d at 540 (Agee,
J., dissenting) (quoting Brecht, 507 U.S. at 627). This
requires accepting that the conversation about burning
in hell for imposing the death penalty was not about the
death penalty. See Dissent of Agee, J., infra at 14 ("Nor
is there any evidence that the pastor opined about the

1 There

is some dispute whether Juror Jordan's testimony that
she was not asking her pastor how to vote was admissible. Id.
at 532, 535. As the panel majority opinion explains though,
crediting this testimony does not change the conclusion of
prejudice here. Id. at 535. If anything, it makes the conclusion
inescapable.
2 Juror

Jordan herself previously indicated she intended to
"remedy the effect of the [defense counsel's] argument."
Barnes I, 751 F.3d at 235 (quoting a summary of a 1995
interview with Juror Jordan, which was signed in 2000 by Juror
Jordan as an accurate description of what she said).

20a

Page 3 of 7

2019 U.S. App. LEXIS 37725, *5
morality of the death penalty generally . . . . [T]he
conversation was limited to whether serving on a jury
faced with the decision between life imprisonment and
the death penalty may result in the juror 'burn[ing] in
hell.'" (quoting J.A. 2273)).
Put simply, this part of the dissenting opinion's analysis
divorces answer from question. The question of going to
hell for imposing a sentence was not neutral and
tangential to sentencing. It was a question about
sentencing. Thus, the pastor's answer was about
sentencing.
The dissenting opinion diverts attention from the natural
reading of the [*6] pastor's answer by shifting focus to
the pastor's advice to "live by the laws of the land."
Barnes II, 938 F.3d at 541 (Agee, J., dissenting)
("Instead, the pastor noted the Bible instructed
Christians to 'live by the laws of the land.'" (quoting J.A.
2273)). The dissenting opinion suggests this is
comparable to a judge reiterating jury instructions, id. at
542-43 (citing Crease v. McKune, 189 F.3d 1188, 1190,
1192-94 (10th Cir. 1999)), or to "a casual, time-of-theday greeting," id. at 543 (quoting United States v. Day,
830 F.2d 1099, 1104 (10th Cir. 1987)). But an
instruction of a pastor to follow the law is not the same
as the instruction of a judge to follow the law. A judge
who explains the felony murder rule to a juror, Crease,
189 F.3d at 1190, is a secular legal authority speaking
on secular legal matter. A pastor opining to a juror on
the death penalty as it relates to God, the Bible, hell,
and the "law of the land" is a religious authority
speaking on a mixed religious-secular legal matter.
These are not equivalent.
Moreover, it is unclear on the record what the pastor
meant by "live by the laws of the land." Juror Jordan
testified that the pastor's verses from the Bible
"explained everything." J.A. 2271. Thus, to fully
understand "live by the laws of the land," we need to
know what else the pastor said. However, as the
dissenting opinion rightly points out, the evidence [*7]
does not pincite which Bible verses the pastor used to
clarify his meaning. Barnes II, 938 F.3d at 541 n.5
(Agee, J., dissenting). But we do have information about
their substance.
One juror recalled that one of the Bible passages that
Juror Jordan read to the jury concerned "eye for an eye
and tooth for a tooth." J.A. 2281. While we may not
know whether the verse came from the Old Testament
or the New Testament, Barnes II, 938 F.3d at 541 n.5
(Agee, J., dissenting), we do know that over twenty

years later, the impact of the pastor's curated verses
was such that the part this juror remembered was "eye
for an eye and tooth for a tooth." J.A. 2281. This
statement suggests that equivalent retribution is the
measure of an appropriate sentence. Artificially isolating
the phrase "live by the laws of the land" to claim it
impartially endorses North Carolina law ignores both the
context of the question asked and the limited evidence
we have about the rest of the pastor's answer. No
evidence in the record supports the dissenting opinion's
characterization that the pastor's views merely matched
the laws of North Carolina and the jury instructions
(which Juror Jordan violated by speaking with him); we
know that different religious authorities interpret [*8] the
same Biblical passages in different ways. "Live by the
laws of the land," like the rest of the pastor's comments,
expresses an opinion—one incompletely explained in
the record but connected to "[an] eye for an eye"—about
how the jurors should sentence the defendants.
Viewing the dissenting opinion as a whole—the way it
splits the answer from the question, the way it treats a
pastor like a judge, the way it purports to interpret "live
by the laws of the land" without considering the
accompanying gloss—the dissenting opinion treats the
opinions of the pastor as legal authority rather than
religious
opinion.
This
approach
might
be
understandable if prejudice could only be found on a
material alteration of the facts or law by which the jurors
determine an issue. See Barnes II, 938 F.3d at 544
(Agee, J., dissenting). Misconduct involving an officer of
the court likely affects such matters. But this approach is
unsound—as illustrated by this case—because, as the
panel majority opinion correctly states, "a prejudicial
influence need not take the form of a third party directly
telling jurors how they should vote or introducing new
facts or law for their consideration." Id. at 536 (citing
Turner v. Louisiana, 379 U.S. 466, 473-74, 85 S. Ct.
546, 13 L. Ed. 2d 424 (1965)). By making assumptions
on this incomplete [*9] record that ignore the diversity
of religious views on the death penalty, and by not
treating the pastor as a pastor, the dissenting opinion
misses the forest while looking for a perfectly archetypal
tree.
Ultimately, this case turned on the facts. On the facts,
Barnes was prejudiced. Accordingly, I concur in denying
the petition for rehearing en banc.
Dissent by: WILKINSON; AGEE

21a

Page 4 of 7

2019 U.S. App. LEXIS 37725, *9

Dissent
WILKINSON, Circuit Judge, with whom NIEMEYER,
Circuit Judge, joins, dissenting from the denial of
rehearing en banc:
I respectfully dissent from the denial of rehearing en
banc for the reasons given so well by Judge Agee. See
Barnes v. Joyner, 751 F.3d 229, 253-66 (4th Cir. 2014)
(Agee, J., dissenting) ("Barnes I"); Barnes v. Thomas,
938 F.3d 526, 536-48 (4th Cir. 2019) (Agee, J.,
dissenting) ("Barnes II"). While this immediate appeal
concerns a federal district court's determination
regarding the existence vel non of actual prejudice, the
panel decision ultimately flows from an earlier judgment
that abrogated what should have been the final word of
North Carolina's state courts. As Judge Agee aptly
explained in Barnes I, there is not a colorable argument
that the North Carolina Supreme Court decision as
adopted by the MAR court amounted to an
"unreasonable application of[] clearly established
Federal law, as determined by the [*10] Supreme Court
of the United States." 28 U.S.C. § 2254(d)(1).
Quite apart from the deference to state courts required
under 28 U.S.C. § 2254(d), the result reached here
does not comport with our constitutional design. State
courts are obliged under the Fourteenth Amendment
and Supremacy Clause to apply federal law. Testa v.
Katt, 330 U.S. 386, 394, 67 S. Ct. 810, 91 L. Ed. 967
(1947). But federal courts are obliged under the
rudimentary dictates of dual sovereignty to respect state
court adjudications.
That, I think, is the gist of the constitutional bargain.
That, to me, is the essence of our constitutional
structure. To read the Suspension Clause in a manner
at such perennial odds with the comity envisioned for
our federal and state systems is not right.
Some time ago, Justice Paul Reardon of the Supreme
Judicial Court of Massachusetts regretted "the effect of
Federal habeas corpus proceedings on State courts."
He lamented the "humiliation of review from the full
bench of the highest State appellate court to a single
United States District Court judge" and how excessive
federal habeas powers contributed in his view to the
"growing denigration of the State courts and their
functions in the public mind." Address at the Annual
Dinner of the Section of Judicial Administration,
American Bar Association, San Francisco, California,
Aug. 14, 1972, pp. 5, [*11] 9, and 10.

In some ways, the problem has only grown worse. The
wound is only salted when the rebuke to state judiciaries
is administered by a federal appellate court under what
is supposed to be a deferential standard. It must be
grating in the extreme to state judges, who take their
responsibility to apply federal law as solemnly as we do
ours, to be upbraided as "unreasonable" jurists. 28
U.S.C. § 2254(d)(1). This is not the first case to do so,
nor will it be by any means the last.
But we would do well to reflect in medias res on how far
we have strayed and how much we have lost. Our
Constitution,
whether
viewed
originally
or
contemporaneously, can only weep when a coordinate
judicial system is rendered routinely subordinate, as has
happened here. AEDPA was meant to vindicate
constitutional values but if AEDPA and the Constitution
are working as here at cross purposes, then Congress's
effort will go increasingly for naught.
Perhaps the relationship of federal and state courts
should come down to the old saying: I'm OK—You're
OK. It's a needed maxim for our day and time. I regret
the fact that our fine court has passed up this
opportunity to restore the constitutional, statutory, and
decisional respect that [*12] our state court colleagues
are due.
AGEE, Circuit Judge, with whom NIEMEYER, Circuit
Judge, joins, dissenting from the denial of rehearing en
banc:
I have twice previously expressed the reasons why
William Leroy Barnes has failed to satisfy the high
burden a state prisoner faces to obtain relief under 28
U.S.C. § 2254. Largely for the same reasons provided in
the prior dissenting opinions, I now dissent from the
Court's denial of en banc rehearing. See Barnes v.
Thomas, 938 F.3d 526, 536 (4th Cir. 2019) (hereinafter
Barnes II) (Agee, J., dissenting); Barnes v. Joyner, 751
F.3d 229, 253 (4th Cir. 2014) (hereinafter Barnes I)
(Agee, J., dissenting).1

1 As

explained in the Barnes I dissent, rehearing is also
appropriate because the panel majority incorrectly held as a
threshold matter in the prior appeal that the state court's
adjudication of Barnes' claim was "contrary to, or involved an
unreasonable application of," Remmer v. United States, 347
U.S. 227, 74 S. Ct. 450, 98 L. Ed. 654, 1954-1 C.B. 146
(1954). 28 U.S.C. § 2254(d)(1); see Barnes I, 751 F.3d at 25366; Joyner v. Barnes, 135 S. Ct. 2643, 192 L. Ed. 2d 944
(2015) (Thomas, J., dissenting from the denial of certiorari).
Judge Wilkinson's separate dissent from today's denial of

22a

Page 5 of 7

2019 U.S. App. LEXIS 37725, *12
En banc rehearing was necessary to maintain uniformity
with the Supreme Court and this Court's precedent
concerning when a petitioner has demonstrated "actual
prejudice" resulting from an error alleged to have
occurred during trial. Because the full Court will not
rehear the case, the panel majority's decision stands,
granting Barnes relief despite his failure to come
forward with any evidence that the error he complained
of actually prejudiced him.
The facts are not in dispute. In 1992, a state jury
sentenced Barnes and one co-defendant to death and
another co-defendant to life imprisonment for their roles
in the murders of an elderly couple. During [*13] closing
arguments in the penalty phase, counsel for one of
Barnes' co-defendants urged the jury not to impose the
death penalty because God's law prohibited capital
punishment. Counsel elaborated that "true believer[s]"
wanted God to welcome them "into the Kingdom of
Heaven" for having obeyed God's commands, and he
cautioned that they could not justify before God their
decision to kill another human being just "because the
laws of man said [they] could." J.A. 2374. For reasons
not explained in the record, the State did not object and
the court offered no instruction to the jury concerning
this argument.
One evening during deliberations, a juror—Hollie
Jordan—asked her pastor if the Bible said that jurors
would "burn in hell" if they imposed the death sentence.
J.A. 2269. The pastor told Jordan that the Bible taught
that individuals should "live by the laws of the land" and
provided her with "some scriptures in the Bible" to
support that view. J.A. 2271. During the next day's
deliberations, Jordan shared this conversation with her
fellow jurors and read several of the Bible verses aloud.
Neither Jordan nor the other two jurors who testified at
the evidentiary hearing (Ardith Peacock [*14] and Leah
Weddington) could recall which Bible verses were read.
Jordan and Peacock testified that Jordan did not use
this information to support or oppose the death penalty,
either generally or with regard to Barnes and his codefendants. Instead, they both characterized the
discussion as affirming that the jurors were "doing [their]
duty" in assessing an appropriate sentence under North
Carolina law. J.A. 2291. Weddington was not asked
about Jordan's conversation with her pastor, but was
asked only whether she recalled Bible verses being

rehearing discusses these important matters further and
underscores how the Antiterrorism and Effective Death
Penalty Act of 1996 mandates federal respect for state court
adjudications.

read. When asked "what might have prompted the juror
— the female juror to bring the Bible into the jury room,"
Weddington responded, "I guess she was trying to
convince someone to — it was okay to give [the
defendants] the death penalty." J.A. 2295 (emphasis
added). This is the sum total of the record.
After showing the other requirements for § 2254 relief, a
petitioner such as Barnes must come forward with
evidence that the complained-of error caused "actual
prejudice." Brecht v. Abrahamson, 507 U.S. 619, 637,
113 S. Ct. 1710, 123 L. Ed. 2d 353 (1993). In Brecht,
the Supreme Court reiterated that in the context of a
habeas petition, "actual prejudice" means a showing
that the error "had substantial and injurious effect or
influence [*15] in determining the" sentence. Id.; see
Fullwood v. Lee, 290 F.3d 663, 679 (4th Cir. 2002)
(noting that to be entitled to habeas relief, the petitioner
need to "demonstrate[] that the verdict was actually
influenced by improper external influence"); Tuggle v.
Netherland, 79 F.3d 1386, 1393 (4th Cir. 1996)
(observing that in the context of an error during the
penalty phase of a capital case, this means showing
that the error had a "'substantial and injurious effect or
influence' . . . on the jury's decision to sentence [the
defendant] to death"). The record Barnes developed
does not satisfy his burden to show that Jordan's thirdparty communication with her pastor had a "substantial
and injurious effect or influence" on the jury's decision to
impose the death penalty.
Most significantly, the communication did not improperly
taint any juror with the pastor's assessment of the
proper punishment in this case. Not every improper
communication between a juror and non-juror will
prejudice a defendant. Instead, courts have looked to
whether the communication exposes jurors to a nonjuror's opinion about the defendant's guilt or
punishment. E.g., Parker v. Gladden, 385 U.S. 363,
363-65, 87 S. Ct. 468, 17 L. Ed. 2d 420 (1966) (per
curiam) (concluding it would "blink[] reality not to
recognize the extreme prejudice inherent" in a bailiff
telling several jurors that the defendant [*16] was
"wicked" and "guilty," and that the courts would "correct
it" if the jury made a mistake in finding the defendant
guilty); United States v. Maree, 934 F.2d 196, 202 (9th
Cir. 1991), abrogated on other grounds by United States
v. Adams, 432 F.3d 1092 (9th Cir. 2006) (holding that
actual prejudice was demonstrated where a juror
"actively discussed" the case with her friends, who
"presented . . . strong opinions concerning the proper
outcome of" the case). In contrast to this kind of
prejudicial third-party conversation, the record here

23a

Page 6 of 7

2019 U.S. App. LEXIS 37725, *16
shows only a conversation that did not touch upon
Barnes' guilt or the appropriate sentence.
Jordan stated without contradiction that she did not ask
the pastor "about what to do in the case," nor did he
provide any such opinion to her. J.A. 2272. There is no
evidence in the record that Jordan's pastor offered an
opinion as to Barnes' guilt, whether he was deserving of
the death penalty, or about the case and the defendants
in general. Nor is there any evidence that the pastor
opined about the morality of the death penalty generally,
as Jordan testified that her pastor did not discuss
whether "the Bible supported [or] didn't support the
death penalty." J.A. 2273. Instead, the conversation was
limited to whether serving on a jury faced with the
decision between [*17] life imprisonment and the death
penalty may result in the juror "burn[ing] in hell." J.A.
2273. And the pastor's response was limited to sharing
that the Bible instructed individuals to "live by the laws
of the land" and providing some verses in support of that
principle. J.A. 2273.
Given the limited nature of Jordan's conversation with
her pastor, it is unsurprising that the testimony Barnes
elicited regarding Jordan's communication of that
conversation was similarly limited. Specifically, Barnes
provided no evidence that Jordan shared her pastor's
views on the proper sentence in this case or about the
pastor or Bible's views on the death penalty. Peacock
expressly testified that Jordan did not use the pastor's
comments or Bible verses to support or oppose the
death penalty. Weddington's testimony was even hazier
and limited to her recollection that a female juror read
several unspecified Bible verses during deliberations.
And when asked what might have prompted Jordan to
read the Bible, Weddington "guess[ed] she was trying to
convince someone . . . it was okay to give him the death
penalty." J.A. 2295 (emphasis added). By the
statement's plain terms, Weddington was "guess[ing]"
about [*18] Jordan's motive but offered no testimony
about the contents of what Jordan said that might
support her speculation. Consequently, Weddington's
statement is pure conjecture and cannot demonstrate
that Jordan's improper communication with her pastor
had a "substantial and injurious effect or influence" on
Barnes' sentencing.2

2 Even

Weddington's non-speculative testimony is limited to
Jordan reading the Bible during deliberations. And because
she could not recall which verses were read or whether they
were from the Old or New Testament, this testimony is of no
evidentiary value. To the extent that Barnes and the majority

Courts have held that a petitioner may be able to satisfy
the Brecht standard when the jury considers inculpatory
evidence that was not presented at trial. See Sherman
v. Smith, 89 F.3d 1134, 1142-43 (4th Cir. 1996) (holding
that the defendant failed to demonstrate Brecht actual
prejudice where a juror improperly took an unsupervised
visit to the crime scene principally because it was
"cumulative" of evidence about the crime scene
admitted at trial); see also Sassounian v. Roe, 230 F.3d
1097, 1108-12 (9th Cir. 2000) (holding actual prejudice
was shown when jury considered a telephone call that
had not been discussed during the trial and which
"directly related" to the defendant's motive). The thirdparty communication that occurred in this case did not
improperly taint any juror with extra-record evidence on
which to base their decision. Barnes presented no
evidence that the pastor directly or indirectly exposed
any juror to any new facts that bore upon their decision
of what [*19] sentence to impose.
Further, the third-party communication in this case
reinforced North Carolina law regarding how jurors were
to undertake their sentencing duty. In contrast to what
occurred here, courts have acknowledged that the
Brecht standard may be satisfied if jurors consult thirdparty sources that alter their understanding of the law
and thereby materially change the standard for
assessing the prosecution's burden. Accord Bauberger
v. Haynes, 632 F.3d 100, 107 (4th Cir. 2011) (holding
no actual prejudice arose when the jurors consulted a
dictionary to define several words used in the jury
instructions because the definitions "fully conveyed the
essence of North Carolina law" and did not materially
affect the standard). Here, Barnes does not contend—
nor could he—that jurors should not have applied "the
law of the land" when determining his sentence. The
pastor's communication and Jordan's reiteration of it
reinforced the precise instruction the trial court had
given to the jurors about their duty to apply North
Carolina law. As such, the communication did not
introduce an improper consideration into the deliberative
process, nor did it expand the circumstances in which
the jury could lawfully impose the death penalty on
Barnes. [*20] Instead, the communication was neutral
with regard to the deliberative choice before the jurors

suggest improper external influence from the mere recitation
or reading of the Bible during deliberations, the Supreme
Court has never held that to be improper or violate the
defendant's constitutional rights. Indeed, this Court has
previously denied § 2254 relief to a state prisoner who
asserted his rights were violated by such conduct. Robinson v.
Polk, 438 F.3d 350, 366 (4th Cir. 2006).

24a

Page 7 of 7

2019 U.S. App. LEXIS 37725, *20
and mirrored the jurors' instruction to follow North
Carolina law. Accordingly, the communication cannot be
said to have had an "injurious" effect on Barnes'
sentencing.
Lastly, other facts reinforce the conclusion that the
communication did not have a "substantial and injurious
effect or influence" on the deliberative process.
Significantly, the jury returned a split sentencing
decision, recommending that the two defendants
(including Barnes) who were identified as the individuals
who shot the victims receive the death penalty and that
the other defendant, who did not shoot, receive life
imprisonment. This differentiation of the defendants
during the same sentencing deliberation supports the
conclusion that the jurors understood their duty under
North Carolina law to individually assess the appropriate
punishment for each of the defendants.
Courts have also looked to the timing and duration of
any error as part of the actual prejudice assessment.
See, e.g., Fitzgerald v. Greene, 150 F.3d 357, 366 (4th
Cir. 1998); Marino v. Vasquez, 812 F.2d 499, 506 (9th
Cir. 1987). In this case, Jordan's conversation with her
pastor lasted only a "few minutes" and she discussed
that conversation during deliberations [*21] for fifteen to
thirty minutes during a multi-day deliberation. J.A. 2271.
All told, there is simply no evidence that the
communications dominated the deliberative process or
otherwise occurred at a critical time. These additional
factors bolster the conclusion that the jurors decided on
the appropriate sentence based on North Carolina's
sentencing criteria, just as they should have.
Despite Barnes' failure to produce any evidence
showing that Jordan's communication with her pastor
satisfied the Brecht standard, the panel majority
nonetheless granted Barnes relief. It improperly
concluded that the pastor's communication with Jordan
must have advocated in favor of the death penalty when
no evidence—none—exists to support that conclusion.
The unrebutted testimony of Jordan and her two fellow
jurors demonstrates that the pastor relayed no personal
views about the appropriate punishment in this case nor
did he directly or indirectly expose them to additional
arguments for or against the death penalty. The only
evidence in the record concerning the pastor's
communication is that it relayed the view that jurors "had
to live by the laws of the land." J.A. 2271. A juror
following that principle [*22] would still face the choice
of which sentence was appropriate under North Carolina
law. In short, the communication could not have had a
"substantial and injurious effect or influence" because it

was neutral as to an appropriate punishment and
reiterated the very instructions under North Carolina law
given by the trial judge.
To correct the panel's misapplication of Brecht's actual
prejudice standard, the Court should have heard this
case en banc. Therefore, I respectfully dissent. It will
now be the Supreme Court's task to correct this error by
reaffirming that the Court meant what it said in Brecht
and Remmer and that lower courts are not at liberty to
deviate from that precedent.

End of Document

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

25a

2018 WL 3659016

KeyCite Red Flag - Severe Negative Treatment
Reversed and Remanded by Barnes v. Thomas, 4th Cir.(N.C.), September 12,
2019

2018 WL 3659016
Only the Westlaw citation is currently available.
United States District Court, M.D. North Carolina.
William Leroy BARNES, Petitioner,
v.
Edward THOMAS, 1 Warden, Central
Prison, Raleigh, North Carolina Respondent.
1:08cv271
|
Signed 08/02/2018
Attorneys and Law Firms
George Bullock Currin, Raleigh, NC, M. Gordon
Widenhouse, Jr., Rudolf Widenhouse & Fialko, Chapel Hill,
NC, for Petitioner.
Jonathan Porter Babb, N. C. Department Of Justice, Raleigh,
NC, for Respondent.

MEMORANDUM OPINION AND ORDER
THOMAS D. SCHROEDER, Chief District Judge.
*1 Petitioner William Leroy Barnes (“Barnes” or
“Petitioner”) brings this habeas proceeding under 28 U.S.C.
§ 2254, challenging his underlying conviction and death
sentence resulting from his role in the 1992 murders of
B.P. and Ruby Tutterow. This case returns to the court on
remand from the Court of Appeals for the Fourth Circuit
with instructions to conduct an evidentiary hearing with
respect to Barnes’s allegations of juror misconduct during the
sentencing phase of his trial. Barnes’s petition was referred to
the United States Magistrate Judge, who held an evidentiary
hearing and entered a Recommendation to deny the petition.
(Doc. 54.) Notice was served on the parties, and Barnes
filed timely objections. (Doc. 58.) Barnes also moves for the
appointment of substitute counsel. (Docs. 59, 60.)
After a thorough review and for the reasons set forth below,
the court now adopts the Recommendation, as modified
herein, denies Barnes’s petition, and denies his motion to
appoint substitute counsel.

I. BACKGROUND
In 1994, Barnes was convicted of first-degree murder and
sentenced to death following a trial in the Superior Court of
Rowan County, North Carolina. Barnes sought to challenge
his sentence and underlying conviction on multiple grounds,
including raising a claim of juror misconduct arising from
a juror’s alleged communication with her pastor during the
sentencing phase of the proceedings. The Supreme Court of
North Carolina affirmed Barnes’s conviction and sentence on
direct appeal. State v. Barnes, 345 N.C. 184, 481 S.E.2d 44
(1997), cert. denied, 523 U.S. 1024 (1998).
In February 1999, Barnes sought state post-conviction relief
on several grounds by filing a motion for appropriate relief
(“MAR”) in Rowan County Superior Court. In his MAR
petition, Barnes reasserted his claim of juror misconduct
and presented additional evidence to support his claim that
a sitting juror, Hollie Jordan (“Juror Jordan”), improperly
communicated with her pastor during sentencing proceedings
and then relayed information to the other jurors. On May
31, 2007, the state MAR court denied this claim without
conducting a hearing, adopting the same reasoning as the
Supreme Court of North Carolina. The Supreme Court of
North Carolina subsequently denied review. See State v.
Barnes, 362 N.C. 239, 660 S.E.2d 53 (2008).
Barnes filed his present petition on April 17, 2008. (Doc.
1.) On March 28, 2013, this court denied his petition but
granted a certificate of appealability with respect to the single
issue involving alleged juror misconduct. (Doc. 28 at 56.) On
appeal, a divided panel of the Fourth Circuit held that the
MAR court unreasonably applied clearly established federal
law, as determined by the Supreme Court of the United States,
by denying Barnes’s juror misconduct claim without applying
a presumption of prejudice and holding an evidentiary hearing
pursuant to Remmer v. United States, 347 U.S. 227 (1954).
Barnes v. Joyner, 751 F.3d 229, 252 (4th Cir. 2014). The
Fourth Circuit remanded the case “for an evidentiary hearing
to determine whether the state court’s failure to apply the
Remmer presumption and its failure to investigate Barnes’
allegations of juror misconduct in a hearing had a substantial
and injurious effect or influence on the jury’s verdict.” Id. at
253.
*2 The magistrate judge held an evidentiary hearing
during which Barnes presented four witnesses: Juror Jordan,
Janine Fodor, 2 Ardith Peacock (“Juror Peacock”), and Leah

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

26a

2018 WL 3659016

Weddington (“Juror Weddington”). (Doc. 47.) Respondent
did not present any witnesses. After thoroughly reviewing
the evidence and relevant testimony from the evidentiary
hearing, the magistrate judge issued a Recommendation
denying Barnes’s claim. (Doc. 54.) Barnes now objects to
several aspects of the Recommendation. (Doc. 58.) 3 After
the magistrate judge issued her Recommendation, Barnes
filed a pro se motion requesting that the court appoint
substitute counsel. (Docs. 59, 60.)
The court will first address Barnes’s objections to the
Recommendation before considering his motion for substitute
counsel. Because the facts underlying Barnes’s conviction,
post-conviction proceedings, and evidentiary hearing are set
forth in the Recommendation, they will be repeated here only
insofar as necessary to address the objections raised.
II. ANALYSIS
A. Objections to Recommendation
Barnes raises several objections to the Recommendation.
He first objects to the magistrate judge’s “incomplete
characterization” of the circumstances that gave rise to
Juror Jordan’s communications with her pastor, Tom Lomax
(“Pastor Lomax”), 4 as well as the characterization of
Jordan’s communication with him and with the other jurors.
(Doc. 58 at 2, 7.) Barnes also objects to the magistrate
judge’s finding that the state court’s error in failing to apply
the Remmer presumption was harmless, arguing that the
magistrate judge failed to appropriately consider the evidence
regarding Juror Jordan’s communication with her pastor as
well as the evidence in his case. (Doc. 58 at 14, 18.)
*3 When considering a magistrate judge’s report and
recommendation, a district court must conduct a “de novo
determination of those portions of the report or specified
proposed findings or recommendations to which objection is
made.” 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(3). In
doing so, the district court “may accept, reject, or modify,
in whole or in part, the findings or recommendations made
by the magistrate judge.” 28 U.S.C. § 636(b)(1). The Fourth
Circuit has recognized that “a ‘de novo determination’ is
not necessarily the same as a de novo hearing and that the
decision to rehear testimony is within the sole discretion of
the district judge, even as to those findings based on the
magistrate’s judgment as to the credibility of the witnesses
before [her].” Proctor v. State Gov’t of N. Carolina, 830 F.2d
514, 518 n.2 (4th Cir. 1987) (citing United States v. Raddatz,

447 U.S. 667 (1980) ). The district court must review the
entire record, including the transcript, to determine whether
the magistrate judge’s findings are adequately supported by
the record. See Johnson v. Knable, 1991 WL 87147, at *1
(4th Cir. 1991) (per curiam); United States v. Mallicone, No.
5:17-CR-9, 2017 WL 3575894, at *2 (N.D.W. Va. Aug. 18,
2017) (“[T]he first step is for the district judge to review the
record, including the transcript, and to determine whether the
entire record supports the magistrate judge’s findings. If the
magistrate judge’s findings are supported by the record, the
finding can be adopted by the district judge.” (quoting United
States v. Jones, 2011 WL 2160339, *5 (C.D. Ill. June 1, 2011)
). Where a party fails to object to a recommendation, however,
the court’s review is for clear error. Diamond v. Colonial Life
& Accident Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005).
As to the governing law, the Fourth Circuit stated, “[i]t is
clearly established under Supreme Court precedent that an
external influence affecting a jury’s deliberations violates
a criminal defendant’s right to an impartial jury.” Barnes,
751 F.3d at 240 (collecting cases). The Supreme Court in
Remmer “clearly established not only a presumption of
prejudice, but also a defendant’s entitlement to an evidentiary
hearing, when the defendant presents a credible allegation
of communications or contact between a third party and
a juror concerning the matter pending before the jury.”
Id. at 242. In this case, the Fourth Circuit ultimately
concluded that the state MAR court unreasonably applied
clearly established federal law, as determined by the Supreme
Court, by denying Barnes’s juror misconduct claim without
applying a rebuttable presumption of prejudice and ordering
an evidentiary hearing. Id. at 251-52.
Nevertheless, “principles of comity and respect for state court
judgments preclude federal courts from granting habeas relief
to state prisoners for constitutional errors committed in state
court absent a showing that the error ‘had a substantial and
injurious effect or influence in determining the jury’s verdict.’
” Richmond v. Polk, 375 F.3d 309, 335 (4th Cir. 2004)
(quoting Brecht v. Abrahamson, 507 U.S. 619, 623 (1993) ).
As the Fourth Circuit explained, “[t]he Remmer presumption
is meant to protect against the potential Sixth Amendment
harms of extraneous information reaching the jury, but a
state court’s failure to apply the presumption only results
in actual prejudice if the jury’s verdict was tainted by such
information.” Barnes, 751 F.3d at 252 (quoting Hall v. Zenk,
692 F.3d 793, 805 (7th Cir. 2012) ). Within the context of
a federal habeas proceeding, however, “Barnes will not be
entitled to the Remmer presumption” and must “affirmatively

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

27a

2018 WL 3659016

prove actual prejudice by demonstrating that the jury’s verdict
was tainted by the extraneous communication between Juror
Jordan and Pastor Lomax.” Id. at 252-53.
A habeas petitioner is entitled to relief if the court is in
“grave doubt” as to the harmlessness of the error. O’Neal v.
McAninch, 513 U.S. 432, 436 (1995). “ ‘Grave doubt’ exists
when, in light of the entire record, the matter is so evenly
balanced that the court feels itself in ‘virtual equipose’ [sic]
regarding the error’s harmlessness.” Barnes, 751 F.3d at 252
(quoting Fullwood v. Lee, 290 F.3d 663, 679 (4th Cir. 2002) ).
In North Carolina, a court may not impose the death penalty
unless the jurors unanimously agree to such a sentence. N.C.
Gen. Stat. § 15A-2000(b). Thus, the court must determine
whether it can say “with fair assurance” that the judgment was
“not substantially swayed by the error.” Kotteakos v. United
States, 328 U.S. 750, 765 (1946); Allen v. Lee, 366 F.3d
319, 345 (4th Cir. 2004) (Gregory, J., concurring) (noting the
court must “assess whether [it] can say ‘with fair assurance,’
that not a single resolute juror would have voted for a life
sentence.” (quoting Kotteakos, 328 U.S. at 765) ).
*4 In determining whether extraneous information that
reached the jury was likely to have prejudiced a defendant, the
court may consider several factors, including the nature of the
extraneous information, the manner in which it reached the
jury, and the strength of the State’s evidence. Hall, 692 F.3d at
806-07 (“But in deciding whether extraneous information that
reached the jury was likely to have prejudiced a defendant,
there is more to consider than just the nature of the extraneous
information; a court may also consider, among other things,
the power of any curative instructions, and the strength of
the legitimate evidence presented by the State.” (internal
brackets and citations omitted) ); McNeill v. Polk, 476 F.3d
206, 226 (4th Cir. 2007) (King, J., concurring) (considering
similar factors in determining whether petitioner was actually
prejudiced by jury’s use of dictionary definition (citing
Mayhue v. St. Francis Hosp. of Wichita, Inc., 969 F.2d 919,
924 (10th Cir. 1992) ); McNair v. Campbell, 416 F.3d 1291,
1307-08 (11th Cir. 2005) (noting relevant factors include “the
nature of the extrinsic evidence, how the evidence reached the
jury, and the strength of the State’s case”).

1. Communication between
Juror Jordan and Pastor Lomax
Barnes raises several objections to the magistrate judge’s
characterization of Juror Jordan’s communication with her

pastor and subsequent communication to the other jurors.
Barnes first claims that the magistrate judge failed to
consider the circumstances that gave rise to Juror Jordan’s
communications. Barnes contends that the argument about the
Bible and the jurors’ own salvation made by co-defendant
Frank Junior Chambers’s defense attorney during his closing
argument was precipitated by the closing argument of the
prosecutor 5 and thus placed competing arguments before the
jury about how the Bible should inform the juror’s decision
on whether to impose the death penalty. (Doc. 58 at 6.)
Barnes argues that the jury was composed of “very religious”
people 6 and at least one juror was “visibly upset” by the
closing argument by Chambers’s counsel. (Doc. 58 at 6 (citing
Doc. 12-3 at 12).) 7 He further notes that Juror Jordan, whom
Barnes characterizes as a “true believer,” testified that her
church “[p]layed a big role in her life” and she considered
Pastor Lomax to be her spiritual guide and leader. (Id. at 5 n.4
(citing Doc. 54 at 11.) Relying on the Fourth Circuit’s decision
in this case, Barnes contends that “[a]gainst this backdrop,
Jordan’s improper communications with her pastor were both
about the subject matter before the jury and tainted the jury
verdict.” (Id. at 6 (emphasis added).)
*5 However, Barnes conflates the Fourth Circuit’s finding
that the state court’s adjudication of his juror misconduct
claim was “an unreasonable application of clearly established
federal law” with the independent inquiry into whether the
error “actually prejudiced” him. Barnes, 751 F.3d at 252
(quoting Bauberger v. Haynes, 632 F.3d 100, 104 (4th Cir.
2011) ). As the magistrate judge noted, the Fourth Circuit’s
decision focused on the first prong of this inquiry and
expressly stated that based on the record presented it was
“unclear whether Barnes can demonstrate actual prejudice or
whether the MAR Court’s unreasonable application of federal
law was harmless.” Id. at 252. To the extent that the magistrate
judge may have failed to consider the nature of the closing
argument made by the prosecutor, the court finds that it would
not alter the outcome in this case.
Barnes also objects to the magistrate judge’s finding that
“[t]here is no evidence that Pastor Lomax knew any details
regarding the facts of the case or gave any advice or
statement to what jurors should do or the verdict they should
return.” (Doc. 54 at 19.) Barnes notes that Juror Jordan
testified that she told him she was on a jury and mentioned the
“horrific” crime scene pictures that were introduced during
the closing argument. (Doc. 47 at 50-51.) However, the
magistrate judge explicitly acknowledged this testimony in
making her factual finding. (Doc. 54 at 19.) Moreover, Juror

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

28a

2018 WL 3659016

Jordan testified that she “just told him that the pictures were
horrific” and “didn’t specify which pictures.” (Doc. 47 at
50-51.) To the extent that Pastor Lomax was made aware
of some facts regarding the case, it is true that there is no
evidence that he “gave any advice or statement to what jurors
should do or the verdict they should return” (Doc. 54 at 19);
rather, he told Juror Jordan that the jurors would not burn in
hell and “we had to live by the laws of the land.” (Doc. 47
at 51.)
Barnes next objects to the Recommendation’s finding that
“there is no evidence that [Pastor Lomax] attempted to
persuade Juror Jordan to vote for or against the death
penalty, or that he suggested the Bible supported a particular
sentence.” (Id. at 19.) Barnes challenges the magistrate
judge’s characterization that the juror spoke with her pastor
for “a few minutes” about the trial, noting that Jordan testified
that she met with the pastor for “roughly an hour or two”
and spent “15 to 30 minutes” discussing the Bible verses
with the jurors. (Doc. 58 at 7-8.) He charges that it “defies
common sense” to assume that most of the “roughly two hour
conversation” centered on “family” and “other things,” as
Juror Jordan testified. (Id. at 8.) Barnes also points out that
Juror Peacock testified that one of the Bible passages Jordan
read was “an eye for an eye and a tooth for a tooth.” (Id. at 9.)
Barnes contends that “[i]nasmuch as the closing argument of
Chambers’ attorney was undeniably against the imposition of
the death penalty, the Bible verses that rebutted this closing
argument are ipso facto in favor of the death penalty.” (Id. at
13.)
As to timing, it is Barnes who seeks to reject the only record
evidence and thus speculate that Juror Jordan’s conversation
with her pastor lasted “roughly two hours” and concerned
mostly a discussion about the case. Juror Jordan testified that
her conversation regarding the case lasted “[j]ust the few
minutes that [she] asked him would we burn in hell and he
said no, we had to live by the laws of the land.” (Doc. 47
at 51.) She testified that “[h]e told me some scriptures in the
Bible, you know, that explained everything.” (Id.) Otherwise,
the remainder of the conversation was about “family” and
“other things.” (Id. at 51-52.) In the absence of further crossexamination (which was available) or other testimony (which
was not elicited), the magistrate judge’s finding is wellsupported by the record.
*6 Here, the evidence indicates that Juror Jordan offered
the Bible verses to rebut the closing argument by Chambers’s
attorney. (Doc. 12-3 at 12; Doc. 47 at 54-55.) Juror

Weddington testified during the evidentiary hearing that she
recalled a female juror reading Bible verses out loud during
the jury’s sentencing deliberations but could not recall the
juror’s name or the verses read. (Doc. 47 at 74-75.) The
following exchange then occurred:
Q. Do you have any knowledge about what might have
prompted the juror − the female juror to bring the Bible into
the jury room?
A. I guess she was trying to convince someone to - it was
okay to give him the death penalty.
(Doc. 47 at 75.) 8 Juror Peacock testified that she believed
Juror Jordan offered the verses to rebut the closing argument
offered by Chambers’s attorney, but she could not say whether
Juror Jordan offered the verses to promote a particular
sentence, apart from providing the general message that the
jurors should apply the law. (Doc. 47 at 70-72.) Notably,
neither Jurors Peacock nor Weddington could confirm what
passages were read or whether they were from the Old or New
Testament. See Robinson v. Polk, 438 F.3d 350, 359 n.8 (4th
Cir. 2006) (noting stark differences between “eye for an eye”
passages in the Old and New Testament, but assuming for the
sake of argument that the juror read from the Old Testament).
The magistrate judge characterized Juror Weddington’s
testimony as to Juror Jordan’s purported motive for reading
the Bible passages as speculation. (Doc. 54 at 15.) Barnes
objects to this characterization and contends that Juror
Weddington’s “prefatory remark that ‘I guess’ was merely
superfluous, as her testimony was based on what she actually
observed Jordan doing in relation to another juror.” (Doc. 58
at 14.) Barnes notes that Weddington’s statement conforms
with a summary of Weddington’s testimony provided in
a sworn affidavit from Daniel Williams, an investigator
retained by Barnes’s counsel, (Doc. 12-3 at 6-7), as well
as Juror Jordan’s previous signed statement in which she
stated that she “noticed that another juror, a female, seemed
visibly upset by the [defense closing] argument, and that she
(Jordan) brought in the Bible to remedy the effect of the
argument.” (Doc. 58 at 13 n.8 (citing Doc. 12-3 at 12).)
Regardless of whether Juror Weddington prefaced her
statement with “I guess,” her opinion regarding another
person’s motive can only be considered speculation,
particularly where she could not recall the name of the juror
who read the Bible verses or which verses were read. (Doc. 47
at 74-75.) Furthermore, the statement itself does not directly
contradict Juror Jordan’s own testimony that she did not

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

29a

2018 WL 3659016

communicate these Bible verses to convince jurors to impose
a particular sentence, but rather to advise them that as jurors
they should apply the law of the land and would not “burn in
hell” if they imposed the death penalty. (Doc. 47 at 52 (“Just
the closing argument as far as, like I said, if they got the death
sentence for what they did and we sentenced them to death,
were we going to die because we’re killing them.”) and (“I
just wanted to know if I was going to burn in hell for it.”); at
55-56 (“The only thing was as far as burning in hell. That’s
the only reason I went and talked to him.”)

2. Actual Prejudice and Harmless Error
*7 Barnes next challenges the Recommendation’s
conclusion that the state court’s error in failing to apply the
Remmer presumption is harmless because Barnes suffered no
actual prejudice as a result of the communication between
Pastor Lomax and Juror Jordan. (Doc. 58 at 14.) Barnes
claims that the magistrate judge relied on an “incorrect
and overly narrow assessment of the evidence” regarding
Juror Jordan’s communication with her pastor in making
this finding. (Id.) In addition, Barnes objects to what he
terms as the Recommendation’s “incomplete” consideration
of the evidence in his case. (Id. at 18.) He contends that the
evidence against him was “largely circumstantial and hardly
overwhelming.” (Id.) He further argues that when weighing
the strength of the prosecution’s case against the mitigating
factors, the magistrate judge’s assessment of the evidence is
“fundamentally flawed.” (Id. at 25.)
There is little indication that Pastor Lomax in his interaction
with Juror Jordan or Juror Jordan in her interaction with the
jury employed the Bible verses to support the imposition of
a particular sentence as opposed to authorizing the jurors to
apply the law. No witness testified that Juror Jordan ever
claimed to offer the Bible passages to encourage any juror
to impose the death penalty. Barnes did present evidence
during the state MAR proceeding that Juror Jordan brought
her Bible to the jury room because a juror was “visibly
upset” by the closing argument of Chambers’s attorney that
jurors would “one day face God’s judgment for killing these
defendants.” (Doc. 12-3 at 12; see id. at 7.) And Juror Peacock
testified that one of the Bible passages Jordan read was an
“eye for an eye and a tooth for a tooth.” (Doc. 47 at 61.)
However, Juror Peacock testified that Juror Jordan did not
state whether the Bible verses were offered for or against
the death penalty. (Id. at 72.) During the evidentiary hearing,

Barnes’s counsel and Juror Peacock had the following
exchange:
Q. Would it be fair to say that [Juror Jordan] brought the
Bible passages in to rebut Chambers attorney’s argument?
A. Yes.
Q. Okay. And that it would be okay to impose the death
penalty in the case, correct?
A. She didn’t Q. That was A. She didn’t say either way. I did not hear her say either
way.
(Doc. 47 at 72 (emphasis added).) In addition, no witness
could recall what specific Bible verses were read or identify
whether they originated from the Old or New Testament.
(Doc. 47 at 54, 61 (recalling only “the eye for an eye and tooth
for a tooth ... - the passage that dealt with that”), 72, 75.)
This is a slim basis on which to conclude that either Pastor
Lomax or Juror Jordan relied on the Bible to advocate
for any particular sentence other than the one based on a
correct application of the law. Cf. Oliver v. Quarterman,
541 F.3d 329, 340, 344 (5th Cir. 2008) (holding that
Sixth Amendment violation arose from Bible reading by
jurors during deliberations “where the passage the jury read
described the defendant’s method of killing,” but concluding
that petitioner failed to present clear and convincing evidence
to rebut state court’s factual finding that the reading did not
influence the decision); Robinson v. Polk, 444 F.3d 225, 227
(4th Cir. 2006) (Wilkinson, J., concurring) (“If the presence of
a Bible in the jury room drives the collective discussion, and
renders a capital sentence the result of religious command,
then in my view, an important line has been crossed.”).
In that regard, this case can be distinguished from other
cases in which an extraneous influence was found to deprive
a petitioner of his constitutional right to a fair trial. Cf.
Parker v. Gladden, 385 U.S. 363, 363-64 (1966) (per curiam)
(holding that petitioner was entitled to post-conviction relief
where bailiff told one juror in the presence of other jurors
that “wicked fellow [the petitioner] ... is guilty” and on
another occasion that “[i]f there is anything wrong (in
finding petitioner guilty) the Supreme Court will correct it”);
Stockton v. Com. of Va., 852 F.2d 740, 745-46 (4th Cir.
1988) (holding that the state failed to rebut the presumption of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

30a

2018 WL 3659016

prejudice from improper third party contact, where restaurant
owner approached a group of jurors during lunch, inquired
about their sentencing deliberations, and told them that “they
ought to fry the son-of-a-bitch”). In the absence of additional
evidence that either Pastor Lomax or Juror Jordan employed
Bible verses to actively encourage jurors to impose the death
penalty, the logical conclusion is that the extraneous influence
encouraged the jurors to decide the case based on the facts
presented and the law of North Carolina and not based
on the religious constraints the defense counsel sought to
9

impose. This weighs against any finding that the extraneous
influence had a substantial and injurious effect or influence
in determining the jury’s verdict. See Frye v. Warden, San
Quentin State Prison, No. 2:99-CV-0628 KJM CKD, 2015
WL 300755, at *77 (E.D. Cal. Jan. 22, 2015) (“Because the
most logical interpretation of Juror Fairfield’s statement is
that the writing directed her to follow the law, and it can
hardly be said that this message was objectively prejudicial
to petitioner, this court finds Juror Fairfield’s contact with
her minister and consideration of any extraneous evidence
did not have a substantial and injurious effect or influence in
determining the jury’s verdict.” (citation omitted) ). Cf. Fields
v. Brown, 503 F.3d 755, 781 (9th Cir. 2007) (en banc) (holding
that juror’s notes compiling arguments “for” and “against”
the death penalty based on Bible verses did not amount to
a “substantial and injurious effect in determining the jury’s
verdict”); McNair, 416 F.3d at 1309 (affirming denial of
§ 2254 petition based on jury misconduct arising from the
reading of Bible passages by the jury foreman, relying in part
on the state court’s factual finding that the Bible passages
“merely had the effect of encouraging the jurors to take their
obligations seriously and to decide the question of guilt or
innocence based only on the evidence” (internal quotations
omitted) ).
*8 Furthermore, the strength of the State’s evidence
mitigates against finding any prejudice resulting from the
contact between Juror Jordan and Pastor Lomax. In this
case, the State produced substantial evidence linking Barnes
to the crime, including the eyewitness testimony placing
him with the co-defendants before the crime as well as
contemporaneous statements that indicated a willingness
to kill someone on the day of the murders. See Barnes,
345 N.C. at 242, 481 S.E.2d at 76-77 (summarizing the
relevant evidence against Barnes in the light most favorable
to the State and holding that “the jury could reasonably
find that Barnes killed the victims after premeditation and
deliberation”). The State also produced evidence that Barnes
disposed of one of the murder weapons used in the offense,

and there was gunshot residue on Barnes’s hands at the time of
his arrest, which tended to show that he had fired or handled
a handgun soon after it had been fired within a period of time
close to the killings. See id. Furthermore, despite Barnes’s
denial, the North Carolina Supreme Court found that “during
court proceedings in November, Barnes wore a gold necklace
and a watch belonging to the Tutterows,” the victims. Id. at
202, 481 S.E.2d at 53.
During the sentencing hearing, Barnes’s co-defendant, Robert
Lewis Blakeney, testified that he did not shoot the Tutterows
but that Barnes and co-defendant Chambers shot them while
he was in another room of the house. Id. at 223, 481 S.E.2d
at 65. While Barnes now attacks Blakeney’s “blame shifting”
confession as unreliable (Doc. 58 at 20), Barnes chose not
to testify during the sentencing hearing and failed to offer
any evidence challenging his co-defendant’s testimony. Id. at
223-24, 481 S.E.2d at 65-66. In addition, the State introduced
evidence at sentencing tending to show that Barnes had
previously committed a violent, attempted robbery of a
sixteen-year-old girl. Id. at 237-38, 481 S.E.2d at 74.
Ultimately, the jury found four aggravating circumstances
as to both Barnes and Chambers: (1) both had previously
been convicted of a felony involving the use or threat of
violence; (2) the murders were committed for pecuniary gain;
(3) the murders were part of a course of conduct involving
other violent crimes; and (4) the murders were “especially
heinous, atrocious, or cruel.” Id. at 249-50, 481 S.E.2d at
81. One or more jurors found several mitigating factors as
to Barnes during sentencing, which related primarily to his
difficult childhood and resulting inability to develop into
an adequately adjusted adult. Id. at 250, 481 S.E.2d at 81.
The jury found that Blakeney was only an accomplice in or
accessory to the capital felony murder and his participation
was relatively minor. Id. at 236-37, 481 S.E.2d at 73. It
recommended the death penalty for Barnes and Chambers, but
it sentenced Blakeney to life imprisonment. Id. at 199, 481
S.E.2d at 51.
Even though the jury did find some mitigating factors as
to Barnes at sentencing, these factors related primarily to
his childhood and were overshadowed by the aggravating
factors and overall strength of the State’s case. As the
Supreme Court of North Carolina noted, the evidence tended
to show that “defendants Barnes and Chambers robbed and
viciously murdered two elderly victims. In the course of the
murders and the events that followed, Barnes and Chambers
showed an utter disregard for the value of human life.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

31a

2018 WL 3659016

Id. at 251, 481 S.E.2d at 82. The fact that the jury voted
against the death penalty for co-defendant Blakeney provides
further evidence that the improper contact did not prevent
the jury from judging each co-defendant individually or
otherwise precluded them from rejecting the death penalty
as an appropriate punishment, as the magistrate judge noted
in her Recommendation. (Doc. 54 at 23.) Thus, the State’s
strong evidence of guilt weighs against a finding of prejudice
in this instance. See Brecht, 507 U.S. at 639 (holding
government’s improper use of petitioner’s post-Miranda
silence for impeachment purposes did not substantially
influence the jury’s verdict, relying in part on the fact that “the
State’s evidence of guilt was, if not overwhelming, certainly
weighty”).
*9 Under these circumstances, the court has no “grave
doubt” that the extraneous influence arising from the
improper communication between Pastor Lomax and Juror
Jordan did not substantially influence the jury’s decision
as to whether Barnes should receive the death penalty,
and thus was harmless. O’Neal, 513 U.S. at 436-37. Put
another way, mindful that a unanimous verdict is required to
impose the death penalty, Allen, 366 F.3d at 345 (Gregory,
J., concurring), it can be said with “fair assurance” that
the extraneous influence did not have a “substantial and
injurious effect or influence in determining the jury’s verdict,”
Kotteakos, 328 U.S. at 765. Therefore, the court finds that any
error by the state MAR court’s “failure to apply the Remmer
presumption and its failure to investigate Barnes’ allegations
of juror misconduct in a hearing,” Barnes, 751 F.3d at 253,
was harmless.
B. Motion to Appoint Substitute Counsel
After the objections were filed by counsel, Barnes filed two
pro se motions for the appointment of counsel pursuant to
18 U.S.C. § 3599(a)(2) to assert a claim under Martinez v.
Ryan, 566 U.S. 1 (2012). (Docs. 59, 60.) In addition, Barnes
claims that his appointed counsel are colleagues with counsel
who represented him on direct appeal. (Doc. 60 at 1.) He
further cites the “lack of [c]onstant adequate [c]ommunication
with Petitioner and Petitioner’s grave concerns that [p]ostconviction counsel is deliberately attempting to derail
Petitioner from relief[.]” (Id. at 2.)
Barnes’s counsel take no position on the relief sought
but represent that they “have consistently and thoroughly
represented Mr. Barnes” throughout his § 2254 proceedings,
including successfully obtaining an evidentiary hearing for
him on his juror misconduct claim, handling that hearing, and

filing objections to the magistrate judge’s Recommendation.
(Doc. 61 at 1-2.) Counsel represent that they have provided
Barnes with all copies of their filings. (Id. at 2.)
While 18 U.S.C. § 3599 entitles indigent defendants to the
appointment of counsel in habeas proceedings for capital
cases, habeas petitioners are not entitled to the counsel of their
choice. Christeson v. Roper, 135 S. Ct. 891, 893-94 (2015).
Nevertheless, “a court may ‘replace’ appointed counsel with
‘similarly qualified counsel ... upon motion’ of the petitioner.”
Id. at 894 (quoting 18 U.S.C. § 3559(e) ). “Substitution of that
federally-appointed counsel is warranted only when it would
serve ‘the interests of justice.’ ” Lambrix v. Sec’y, Fla. Dep’t
of Corr., 756 F.3d 1246, 1259 (11th Cir. 2014) (quoting Martel
v. Clair, 565 U.S. 648, 658 (2012) ); see 18 U.S.C. § 3006A(c).
When considering a motion to substitute counsel, a court
should consider both “the timeliness of the motion” and “the
asserted cause for that complaint, including the extent of the
conflict or breakdown in communication between lawyer and
client (and the client’s responsibility, if any, for that conflict).”
Christeson, 135 S. Ct. at 894 (quoting Martel, 565 U.S. at
658). However, “a district court is not required to appoint
substitute counsel just so that a state prisoner can file a futile
petition” or “pursue wholly futile claims that are conclusively
time barred or could not form the basis for federal habeas
relief.” Lambrix, 756 F.3d at 1259 (citations omitted).
Barnes’s request is untimely. He filed the present motion
on March 12, 2018, nearly ten years after filing his initial
petition, over five years after the Supreme Court’s decision
in Martinez, and only after the magistrate judge issued
her Recommendation denying his claim. Barnes offers no
explanation for his delay.
Even if his untimeliness could be excused, Barnes fails to
identify any viable claim. To the extent Barnes’s motion for
new counsel is predicated on a desire to pursue a claim
pursuant to Martinez, such a claim is futile because it exceeds
the scope of the Fourth Circuit’s remand in this case. The
Fourth Circuit remanded this matter to this court “for an
evidentiary hearing to determine whether the state court’s
failure to apply the Remmer presumption and its failure
to investigate Barnes’ allegations of juror misconduct in a
hearing had a substantial and injurious effect or influence on
the jury’s verdict.” Barnes, 751 F.3d at 253. The resolution
of that issue by this court does not involve questions of
procedural default or otherwise implicate Martinez. To the
extent Barnes is attempting to assert a new claim, the request

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

32a

2018 WL 3659016

exceeds the scope of the remand and would violate the
mandate of the Fourth Circuit. See Doe v. Chao, 511 F.3d
461, 465 (4th Cir. 2007); Briggs v. Pennsylvania R. Co., 334
U.S. 304, 306 (1948) (“[A]n inferior court has no power or
authority to deviate from the mandate issued by an appellate
court.”). Barnes has not offered any suggestion that the court
should deviate from the mandate rule due to “exceptional
circumstances.” Doe, 511 F.3d at 467. 10
*10 To the extent Barnes’s request for the appointment
of counsel is predicated on a conflict of interest outside
his request to pursue a Martinez claim, he fails to identify
any actual conflict aside from noting that appointed counsel
are colleagues with the counsel who represented him on
direct appeal. (Doc. 60 at 1.) Barnes thus fails to identify
a sufficient conflict of interest to warrant the appointment
of substitute counsel. Cf. Christeson, 135 S. Ct. at 895
(holding that district court erred in denying motion to
substitute counsel due to “a significant conflict of interest”
where petitioner’s argument in favor of tolling the statute of
limitations depended on establishing that his current attorneys
had effectively abandoned his case).
Finally, Barnes cites a “lack of [c]onstant adequate
[c]ommunication with Petitioner and Petitioner’s grave
concerns that [p]ost-conviction counsel is deliberately
attempting to derail Petitioner from relief[.]” (Doc. 60 at
2.) While Barnes appears to claim that his counsel failed to
adequately keep him informed regarding the status of the
proceedings, his counsel stated in their response that he has
been given copies of all filings in this case. (Doc. 61 at
2.) Barnes has offered no other evidence or specific factual
support for his conclusory claims. Nor does his counsel’s
conduct in proceedings before the court suggest any attempt
to prevent Barnes from obtaining relief - to the contrary,
counsel have been zealous advocates for his claims.
Accordingly, Barnes’s motion for new counsel will be denied,
as it has not been demonstrated to best serve the interests of
justice.
C. Certificate of Appealability
When denying a habeas petition under 28 U.S.C. § 2254,
the court must determine whether the petitioner is entitled
to a certificate of appealability with respect to one or more
of the issues presented in the petition. Rules Governing §
2254 Cases, R. 11(a). Under the Antiterrorism and Effective
Death Penalty Act of 1996, a district court may issue a

certificate of appealability “only if the applicant has made a
substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2). The petitioner must demonstrate
that “reasonable jurists could debate whether ... the petition
should have been resolved in a different manner or that the
issues presented were adequate to deserve encouragement to
proceed further.” Allen, 366 F.3d at 323 (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000) ). “Where a district
court has rejected the constitutional claims on the merits, the
showing required to satisfy § 2253(c) is straightforward: The
petitioner must demonstrate that reasonable jurists would find
the district court’s assessment of the constitutional claims
debatable or wrong.” Slack, 529 U.S. at 484. “The question
is the debatability of the underlying constitutional claim, not
the resolution of that debate.” Miller-El v. Cockrell, 537 U.S.
322, 342 (2003). The standard for granting a certificate has
been described as “low.” Frost v. Gilbert, 835 F.3d 883, 888
(9th Cir. 2016) (citation omitted). “[A] claim can be debatable
even though every jurist of reason might agree, after the
[certificate of appealability] has been granted and the case has
received full consideration, that petitioner will not prevail.”
Buck v. Davis, 137 S. Ct. 759, 774 (2017) (quoting MillerEl, 537 U.S. at 338). Further, within the context of capital
cases, courts have recognized that the severity of the sentence
is an appropriate consideration when deciding whether to
issue a certificate. See, e.g., Smith v. Dretke, 422 F.3d 269,
273 (5th Cir. 2005) (“Because the present case involves the
death penalty, any doubts as to whether a [certificate of
appealability] should [be] issued must be resolved in [the
petitioner’s] favor.” (quoting Hernandez v. Johnson, 213 F.3d
243, 248 (5th Cir. 2000) ) ); Jermyn v. Horn, 266 F.3d 257,
279 n.7 (3d Cir. 2001) (noting “in a capital case, the nature
of the penalty is a proper consideration” (quoting Barefoot v.
Estelle, 463 U.S. 880, 893 (1983) ) ).
*11 In light of the Fourth Circuit’s determination that
Juror Jordan’s communication with Pastor Lomax about
the spiritual implications of imposing the death penalty
concerned “the matter before the jury,” and because this is
a capital case, a review of the complete record persuades
the court to conclude that, while it is confident in its
determination, a reasonable jurist could at least debate the
court’s resolution of the constitutional claim. Therefore, the
court will issue a certificate of appealability on the issue of
whether the extraneous communication between Juror Jordan
and Pastor Lomax had a “substantial and injurious effect or
influence in determining the jury’s verdict,” or rather was
harmless.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

33a

2018 WL 3659016

III. CONCLUSION
The court has carefully reviewed those portions of the
Recommendation of the United States Magistrate Judge to
which objections were made, whether or not specifically
addressed herein, and has made a de novo determination. The
court’s determination is in accord with the Recommendation,
which is ADOPTED, as modified herein.
IT IS THEREFORE ORDERED that Barnes’s petition (Doc.
1) be DENIED as to the single claim on remand from the
Court of Appeals for the Fourth Circuit.
IT IS FURTHER ORDERED that Barnes’s motion for the
appointment of substitute counsel (Docs. 59, 60) be DENIED.

For the reasons noted, the court will grant a certificate
of appealability on the issue of whether the extraneous
communication between Juror Jordan and Pastor Lomax had
a “substantial and injurious effect or influence in determining
the jury’s verdict,” or rather was harmless. See 28 U.S.C. §
2253(c)(2).
A Judgment will be entered contemporaneously with this
Memorandum Opinion and Order.
All Citations
Not Reported in Fed. Supp., 2018 WL 3659016

Footnotes

1
2

3

4
5

6
7

Edward Thomas is now the present Warden of North Carolina’s Central Prison and has been substituted as Respondent.
See Fed. R. Civ. P. 25(d).
Janine Fodor represented Barnes in his direct appeal while she worked in the North Carolina State Appellate Defender’s
Office. (Doc. 47 at 23-24.) The magistrate judge accepted Fodor’s testimony subject to several objections by Respondent.
(Doc. 54 at 10 n.1, 10-11 n.2.) The magistrate judge permitted Fodor’s testimony regarding her review of the legal issues
of the case but considered that proffer as an argument of counsel rather than opinion testimony. (Id. at 10 n.1.) During the
evidentiary hearing, the magistrate judge sustained the Respondent’s hearsay objection to Fodor’s testimony regarding
what Juror Jordan told Fodor about her consultation with Pastor Lomax during an interview, but permitted Barnes to
make an offer of proof as to the challenged testimony. (Id. at 10-11 n.2.) The magistrate judge ultimately concluded that
“[e]ven if the Court considers this testimony, the Court finds that the testimony of Juror Jordan herself is more direct and
more credible than the general characterizations by Attorney Fodor of her recollection from the summary of her notes
of her interviews with Juror Jordan.” (Id.) Barnes has not raised any objection to this credibility determination or these
evidentiary rulings, and the court does not find that the magistrate judge erred in making these findings.
During the evidentiary hearing, the parties raised several objections to certain testimony regarding the jurors’ mental
thought processes under Federal Rule of Evidence 606(b). Consistent with her evidentiary rulings during the hearing, the
magistrate judge held that certain portions of testimony should not be considered. (Doc. 54 at 10-11 n.2, 13 n.3, 14 n.4.)
Barnes does not challenge these evidentiary rulings, nor does the court find that the magistrate judge erred in excluding
such testimony. See United States v. Lawson, 677 F.3d 629, 646-47 (4th Cir. 2012).
Pastor Lomax is deceased, and thus no testimony was provided from him. (Doc. 47 at 48.)
Portions of the trial transcript which Barnes cites as the closing argument of the prosecutor are actually the closing
argument of counsel for Barnes’s co-defendant, Chambers. (See Doc. 58 at 3 (citing Trial Tr. Vol. VII at 393-95 (arguing
that the State was “asking you to go back and commit premeditation, deliberation, and with malice in your heart order
the killing of those three men,” and stating that “[y]ou do not violate the laws of North Carolina when you return a death
verdict” and “I’ll not comment on the laws of God at this time”), 401-02 (contending that the State has put the jurors, as
“true believers,” in “the predicament” of having “[t]o explain [on judgment day] when your soul is at stake” that “yes, I did
violate one of your commandments”).)
Barnes relies on the fact that eleven jurors acknowledged a church affiliation during voir dire. (Doc. 58 at 2.)
During his closing argument, Chambers’s counsel stated:
If you’re a true believer and you believe that Frank Chambers will have a second judgment day, then we know that
all of us will too. All of us will stand in judgment one day. And what words is it that a true believer wants to hear?
[“]Well done, my good and faithful servant. You have done good things with your life. You have done good deeds.
Enter into the Kingdom of Heaven. [”] Isn’t that what a true believer wants to hear? Or does a true believer want to
explain to God, [“]yes, I did violate one of your commandments. Yes, I know they are not the ten suggestions. They
are the ten commandments. I know it says, Thou shalt not kill, but I did it because the laws of man said I could.[”] You

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Barnes v. Thomas, Not Reported in Fed. Supp. (2018)

34a

2018 WL 3659016

8

9

10

can never justify violating a law of God by saying the laws of man allowed it. If there is a higher God and a higher
law, I would say not.
To be placed in the predicament that the State has asked you to place yourself in, is just that. To explain when your
soul is at stake. [“]Yes, I know the three that I killed were three creatures of yours, God. And that you made them in
your likeness. I know you love us all, but I killed them because the State of North Carolina said I could.[”] Who wants
to be placed in that position? I hope none of us. And may God have mercy on us all.
Barnes, 751 F.3d at 233. As the Fourth Circuit noted, “[t]he prosecution did not object at any point during this argument.”
Id. Apart from objecting to the prosecutor’s statement that “you have nothing to feel guilty about for imposing the sentence
that is required by the law,” neither Barnes nor his co-defendants otherwise objected to the references to religion in the
prosecutor’s closing argument that Barnes contends precipitated this argument by Chambers’s counsel. (See Trial Tr.
Vol. VII at 359-61.)
During the evidentiary hearing, the Respondent maintained a standing objection under Federal Rule of Evidence 606(b)
and specifically objected to this testimony. (Doc. 47 at 75.) The magistrate judge acknowledged the objection and
invited both parties to address the issue in the post-hearing briefing. (Doc. 54 at 13 n.3.) After noting the Respondent’s
failure to address the issue with any additional specificity in the post-hearing briefing, the magistrate judge overruled
the Respondent’s objections, concluding that the testimony fell within the exceptions in Rule 606(b)(2)(A) and (B). (Doc.
54 at 13 n.3.) The Respondent has not challenged this evidentiary ruling. Whether or not this statement falls within an
exception under Rule 606(b)(2)(A) or (B), it is nevertheless sheer speculation.
To be sure, while the closing argument by Chambers’s attorney effectively placed the spiritual implications of imposing
the death penalty before the jury, Barnes, 751 F.3d at 249, there is no evidence to indicate that the trial court instructed
the jurors that this factor was at all relevant. See Barnes, 345 N.C. at 227, 236, 481 S.E.2d at 68, 73 (summarizing trial
court’s instructions). Moreover, there is no indication that after Juror Jordan’s discussion of the Bible passages for “15 or
30 minutes” in the jury room (Doc. 47 at 55), any juror subsequently discussed them.
Even if such a claim were considered to fall within this court’s remand jurisdiction, it would be futile on the merits. “Because
a prisoner does not have a constitutional right to counsel in state post-conviction proceedings, ineffective assistance in
those proceedings does not qualify as cause to excuse a procedural default.” Davila v. Davis, 137 S. Ct. 2058, 2062
(2017) (citing Coleman v. Thompson, 501 U.S. 722 (1991) ). In Martinez v. Ryan, 566 U.S. 1 (2012) and Trevino v.
Thaler, 569 U.S. 413 (2013), the Supreme Court recognized a narrow exception to this rule, which “treats ineffective
assistance by a prisoner’s state postconviction counsel as cause to overcome the default of a single claim - ineffective
assistance of trial counsel - in a single context - where the State effectively requires a defendant to bring that claim in state
postconviction proceedings rather than on direct appeal.” Id. at 2062-63. Unlike the petitioner in Martinez, Barnes did raise
a claim of ineffective assistance of trial counsel in his post-conviction MAR proceeding, and this claim was not subject
to procedural default. In his federal petition, he again raised this issue, and this court held that he failed to demonstrate
that the rejection of this claim by the state courts was contrary to or an unreasonable application of clearly established
federal law as determined by the Supreme Court. (Doc. 28 at 38.) Accordingly, any attempt to rely on Martinez to raise or
re-raise such claims would be futile. Lambrix, 756 F.3d at 1260-61 (“[T]he Martinez rule relates to excusing a procedural
default of ineffective-trial-counsel claims in an initial § 2254 petition and does not apply to cases like [petitioner’s]-where
ineffective-trialcounsel claims were reviewed on the merits in the initial § 2254 proceeding.”) To the extent Barnes now
seeks to raise a new claim of ineffective assistance of trial counsel under Martinez, it would be time-barred under 28
U.S.C. § 2254(d). Id. at 1262 (holding that any new ineffective assistance of trial counsel claim was time-barred, noting
that “Martinez does not alter the statutory bar against filing untimely § 2554 [sic] petitions”).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

35a

2018 WL 4765207

KeyCite Red Flag - Severe Negative Treatment
Reversed and Remanded by Barnes v. Thomas, 4th Cir.(N.C.), September 12,
2019

2018 WL 4765207
Only the Westlaw citation is currently available.
United States District Court, M.D. North Carolina.
William Leroy BARNES, Petitioner,
v.
Carlton JOYNER, Respondent.
1:08CV271
|
Signed 01/25/2018
Attorneys and Law Firms
George Bullock Currin, Raleigh, NC, M. Gordon
Widenhouse, Jr., Rudolf Widenhouse & Fialko, Chapel Hill,
NC, for Petitioner.
Jonathan Porter Babb, N. C. Department of Justice, Raleigh,
NC, for Respondent.

Defendants William Leroy Barnes, Robert Lewis Blakney,
and Frank Junior Chambers were tried jointly and capitally
upon indictments charging them each with two counts
of first-degree murder, two counts of robbery with a
dangerous weapon, and one count of first-degree burglary
in connection with the killings of B.P. and Ruby Tutterow.
The jury returned verdicts finding all three defendants
guilty of both counts of first-degree murder on the theory
of premeditation and deliberation as well as under the
felony murder rule. The felonies the jury relied upon in
finding defendants guilty of felony murder were burglary
and both counts of armed robbery. Following a capital
sentencing proceeding pursuant to N.C.G.S. § 15A–
2000, the jury recommended that defendants Barnes and
Chambers be sentenced to death for each murder and that
defendant Blakney be sentenced to a mandatory term of life
imprisonment for each murder. The trial court accordingly
sentenced defendants Barnes and Chambers to death for the
first-degree murders and sentenced defendant Blakney to
two terms of life imprisonment. Defendants were also each
sentenced to two terms of forty years’ imprisonment for
armed robbery and a term of forty years’ imprisonment for
burglary. All sentences are to be served consecutively.
....

RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE
Joi Elizabeth Peake, United States Magistrate Judge
*1 This case involves a federal Habeas Petition [Doc. #1]
under 28 U.S.C. § 2254, challenging a state court sentence
imposing the death penalty as to Petitioner William Leroy
Barnes. The matter is presently before the Court on remand
from the Court of Appeals for the Fourth Circuit to conduct an
evidentiary hearing with respect to Petitioner’s allegations of
misconduct by a juror during the sentencing phase of his case.
This Court held an evidentiary hearing, after which the parties
filed post-hearing briefing. For the reasons set out below, the
Court finds that any error by the state court was harmless. The
Court therefore recommends that the juror misconduct claim
set out in the Habeas Petition be denied.
I. BACKGROUND
The Court first sets out the facts underlying Petitioner’s
conviction and sentence in this case, as summarized by the
North Carolina Supreme Court.

... [A] brief synopsis of the evidence introduced at trial is
as follows: On 29 October 1992, all three defendants went
to the Salisbury home of B.P. and Ruby Tutterow to rob
the Tutterows. Defendant Chambers had met B.P. while
incarcerated at the Rowan County jail, where B.P. cooked
part-time and served as a deputy sheriff. B.P. was known
to carry significant amounts of money in his wallet and
had given defendant Chambers money to buy cigarettes and
food while Chambers was in jail.
Chambers was released from jail on the afternoon of 29
October, and shortly thereafter met up with defendant
Blakney and Antonio Mason at a nearby convenience
store. Chambers told Blakney and Mason that he had been
released from jail without any money and that he knew
someone who lived nearby who had plenty of money.
Chambers said that he was willing to kill someone if it
was necessary to get some money. After being unable to
convince Mason to cooperate in their efforts, Chambers
and Blakney joined up with defendant Barnes, who was at
that time in the convenience store parking lot. Chambers,
Blakney, and Barnes then went with others to the apartment
of Cynthia Gwen, where the three defendants talked

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

36a

2018 WL 4765207

together about “mak[ing] a lick,” or robbing someone.
Barnes got into an argument with another man while at
Gwen’s apartment, and Gwen asked him to leave. The three
defendants then left Gwen’s apartment together around
10:00 p.m.

heard sirens and followed the sounds to the Tutterow home,
where they learned of the murders. Valerie told an officer
at the scene that “[Blakney] shouldn’t have killed those
people like that” and went to the police department around
midnight to tell the police what she knew.

*2 Patricia Miller was speaking with B.P. Tutterow on
the phone around 10:00 p.m. that evening when she heard
a commotion on the line and the phone went dead. After
attempting to reach the Tutterows several times, Miller
telephoned the police around 11:30 p.m. Salisbury police
officers arrived at the Tutterow home around 12:30 a.m. on
30 October and found the Tutterows dead and the house
ransacked.

Some time after midnight, Everette Feamster, a Salisbury
cab driver, drove defendants to the Bradshaw Apartments
in Salisbury. Feamster and a passenger in the cab, Charles
Fair, testified that they heard defendants talking about
money and saw them passing money back and forth. Upon
arriving at the Bradshaw Apartments, Barnes purchased
three hundred dollars’ worth of crack cocaine from Wayne
Smith and bought more crack from Willie Peck. Barnes
later sold B.P.’s .38–caliber revolver for five rocks of crack.
Defendants then went to several other parties throughout
the early morning, during which time they bought as much
as one thousand dollars’ worth of crack from Smith and
varying amounts of crack from other sellers. At the home
of Paula Jones, Smith saw Barnes with a pistol stuck in his
pants and Blakney with a pistol in his pants. Blakney then
gave his pistol to Chambers.

The Tutterows’ daughters determined that several things
were missing from their parents’ home including
B.P.’s .357 Magnum pistol and a .38–caliber revolver,
B.P.’s gold wedding band and gold watch, several items
of jewelry, two bank bags that usually contained cash, and
a bag of antique coins including some Susan B. Anthony
dollars and Kennedy half-dollars.
Physical evidence in the home tied defendants Blakney and
Chambers to the crime. The DNA profile of a sample drawn
from one cigarette butt found in the house matched that
of Chambers, and the profile on another butt matched that
of Blakney. A latent fingerprint on a money box found
in one bedroom matched Chambers’ left middle finger. A
print obtained from another money box matched that of
Blakney’s left palm.
Around 11:00 p.m. on the night of the murders, Barnes,
Blakney, and Chambers went to the apartment where
Antonio, Sharon, and Valerie Mason lived. Blakney and
Chambers told Sharon that they would pay her for the use
of her car to go to Kannapolis to dispose of some guns.
Although Sharon refused, Blakney gave the two women
around twenty to forty dollars and gave Valerie a wedding
band with one small diamond. When Valerie asked Blakney
where he got the ring, he replied that “we f----- up a police”
and that it was a “three-person secret.” Blakney further told
Valerie that he, Barnes, and Chambers had some jewelry
and guns. Barnes and Chambers each then showed Valerie
and Sharon a gun.
Defendants then left with Antonio to buy drugs. They
bought about sixty dollars worth of crack at a nearby
apartment complex and returned to the Mason apartment
to smoke it, after which defendants left the apartment
again. Shortly thereafter, Antonio, Sharon, and Valerie

During the early morning of 30 October 1992, Blakney
pawned two rings—a “mother’s ring” with three
birthstones and a wedding band—and some antique coins.
Barnes attempted to sell a gold watch with diamonds on
the face to Joseph Knox. Chambers attempted to hide
Mr. Tutterow’s .357 Magnum pistol at the home of Carl
Fleming. Barnes was taken into custody on the morning
of 30 October, Blakney was arrested that afternoon, and
Chambers turned himself in that afternoon.
*3 All three defendants later made statements to police,
but each denied having been involved in the killings of
the Tutterows. Chambers admitted to having been in the
Tutterow home and told Rachel Eberhart, “Hell yeah, I
killed the m-----f-----,” although he later said he was merely
kidding. Blakney told police that he took items from the
bedrooms but that he did not take part in the shootings.
Barnes denied having seen Blakney or Chambers on 29
October 1992 and stated that he had nothing to do with the
killings. Special Agent Michael Creasy testified that the
palms of Barnes’ hands had indications of gunshot residue
on them and explained that the concentrations on Barnes’
palms could have been a result of Barnes having merely
handled a gun rather than having actually shot one. Gunshot
residue was also found on the waistbands of Barnes’ and
Chambers’ pants. Furthermore, during court proceedings

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

37a

2018 WL 4765207

in November, Barnes wore a gold necklace and a watch
belonging to the Tutterows.
Dr. Brent Hall testified that Ruby Tutterow died as a result
of multiple gunshot wounds. She suffered ten wounds in
all, four of which were to the head. Hall testified that
two of these wounds, one to the head and one to the
back, had the potential to be rapidly fatal. Dr. Deborah
Radisch testified that B.P. Tutterow also suffered multiple
gunshot wounds and died as a result of a gunshot to the
chest in combination with several shots to the face and
head. B.P. had also been beaten and had suffered a number
of defensive wounds. Special Agent Thomas Trochum
testified that the Tutterows were shot with both a .357
Magnum revolver and .38–caliber revolver, although he
added that he could not say whether a third gun was
involved.
....
Blakney testified at sentencing that he did not shoot
the Tutterows, that Barnes and Chambers did shoot the
Tutterows while he was in another room, and that he had
not planned to kill anyone during the robbery. Neither
Barnes nor Chambers testified during the sentencing
hearing.
State v. Barnes, 345 N.C. 184, 199-202, 223 (1997).
Petitioner’s sentence was upheld on direct appeal and in his
state post-conviction proceedings. He then filed a Habeas
Petition in this Court, which was denied on March 28, 2013.
However, the Court granted a certificate of appealability on a
single issue alleging juror misconduct based on evidence that
a juror improperly communicated with her pastor about the
death penalty during the sentencing phase of Barnes’ trial and
then relayed the information to other jurors. Barnes v. Joyner,
751 F.3d 229, 232 (4th Cir. 2014). As to that issue, the Fourth
Circuit summarized the relevant background as follows:
During the closing arguments of the sentencing phase,
an attorney representing co-defendant Chambers stated, in
pertinent part, as follows:
If you’re a true believer and you believe that Frank
Chambers will have a second judgment day, then we
know that all of us will too. All of us will stand in
judgment one day. And what words is it that a true
believer wants to hear? [”]Well done, my good and
faithful servant. You have done good things with your
life. You have done good deeds. Enter into the Kingdom

of Heaven. [”] Isn’t that what a true believer wants to
hear? Or does a true believer want to explain to God,
[”]yes, I did violate one of your commandments. Yes, I
know they are not the ten suggestions. They are the ten
commandments. I know it says, Thou shalt not kill, but
I did it because the laws of man said I could.[”] You can
never justify violating a law of God by saying the laws
of man allowed it. If there is a higher God and a higher
law, I would say not.
To be placed in the predicament that the State has asked
you to place yourself in, is just that. To explain when
your soul is at stake. [”]Yes, I know the three that I killed
were three creatures of yours, God. And that you made
them in your likeness. I know you love us all, but I killed
them because the State of North Carolina said I could.[”]
Who wants to be placed in that position? I hope none of
us. And may God have mercy on us all.
*4 J.A. 1532–33. The prosecution did not object at any
point during this argument.
The next day, the jury recommended that Barnes and
Chambers be sentenced to death for each murder and
that Blakney be sentenced to a mandatory term of life
imprisonment for each murder. After the jury returned its
sentencing recommendations and exited the courtroom,
the following colloquy took place between the court and
defense counsel:
THE COURT: I take it everyone wants to enter some
Notice of Appeal. Is that correct?
MR. HARP [CHAMBERS’ COUNSEL]: The first thing
we would like to get in is that late yesterday afternoon
we were informed, after talking to alternate jurors, that
on Tuesday, before deliberation and before instructions
were given by the Court, one of the jurors carried a
Bible back into the jury room and read to the other jurors
from that. That it was also discovered by us that one of
the jurors, one of the other jurors, called a member of
the clergy, perhaps a relative of hers, to ask her about
a particular question as to the death penalty. We also
informed you of it this morning at ten o’clock and that
we need to enter that on the record for purposes of
preserving that.
MR. FRITTS [BARNES’ COUNSEL]: Judge, for Mr.
Barnes we join in on that. We would for those reasons
make a Motion for Mistrial and we would request the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

38a

2018 WL 4765207

Court to inquire of the jurors, and I understand the
Court’s feelings on that, but that would be our request.
THE COURT: No evidence that anybody discussed the
particular facts of this case with anybody outside the
jury. Is that correct?
MR. HARP: No evidence that they did or did not as far
as the conversation with the minister is concerned.
THE COURT: No evidence that they did though. Is that
correct?
MR. HARP: No, sir.
THE COURT: All right. Well, I’m going to deny the
request to start questioning this jury about what may or
may not have taken place during their deliberations of
this trial.
J.A. 1601–03. Thereafter, the trial court denied the
defense’s post-sentence motions and rejected their request
to conduct an evidentiary hearing with respect to juror
misconduct.
Barnes v. Joyner, 751 F.3d at 233-34.
Petitioner continued to pursue this claim on direct appeal and
on a post-conviction Motion for Appropriate Relief (“MAR”)
in state court, with supporting affidavits. Specifically, as later
summarized by the Fourth Circuit,
Barnes offered new information to the MAR Court to try to
demonstrate that Hollie Jordan (“Juror Jordan”), a sitting
juror, improperly communicated with her pastor about the
death penalty during the sentencing phase of Barnes’ trial.
This new information was presented through a number
of exhibits compiled by post-conviction counsel and their
investigator, which were based on post-verdict interviews
with several of the jurors.
One of the exhibits attached to Barnes’ MAR was an
“Interview Summary” of a May 31, 1995 interview of
Juror Jordan. According to the Interview Summary, Juror
Jordan was offended by the closing argument in which
co-defendant Chambers’ attorney argued “that if jurors
voted for the death penalty, they would one day face
God’s judgment for killing these defendants.” J.A. 1898.
Although Juror Jordan “did not accept the attorney’s
argument,” she did notice “that another juror, a female,
seemed visibly upset” by it. Id. “To remedy the effect of the
argument, [Juror] Jordan brought a Bible from home into

the jury deliberation room” and read a passage to all the
jurors, which provided “that it is the duty of Christians to
abide by the laws of the state.” Id. The Interview Summary
does not mention any conversation with Juror Jordan’s
pastor; it states that Juror Jordan knew the Bible passage
from church.
*5 In addition to Juror Jordan’s Interview Summary,
Barnes’ MAR relied on a September 7, 2000 affidavit
from Daniel C. Williams (“Investigator Williams”), an
investigator hired by Barnes’ post-conviction counsel. In
his affidavit, Investigator Williams described interviews he
conducted with three jurors from Barnes’ trial, including
Juror Jordan. According to Investigator Williams,
Juror Jordan explained, “she called her pastor Tom
Lomax” (“Pastor Lomax”) in response to a defense
attorney’s closing argument in which the attorney
“suggested that if jurors returned a death sentence, they, the
jurors[,] would one day face judgment for their actions.”
J.A. 1892. Juror Jordan stated that she “discussed the
lawyer’s argument with [Pastor] Lomax.” Id. During their
conversation, “[Pastor] Lomax told [Juror] Jordan about
another biblical passage which contradicted the passage
relied upon by the defense attorney.” Id. The next day, Juror
Jordan brought her Bible into the jury deliberation room
and “read the passage suggested to her by [Pastor] Lomax
to all of the jurors.” Id.
Investigator Williams also interviewed jurors Leah
Weddington (“Juror Weddington”) and Ardith F. Peacock
(“Juror Peacock”), both of whom recalled that a member
of the jury brought a Bible into the jury room
during sentencing deliberations. Juror Weddington told
Investigator Williams that “[t]he person who brought in the
Bible read a passage to a juror who was having a hard time
with the death penalty.” J.A. 1892–93. Juror Peacock could
not recall the details of the verse, but she stated that it “dealt
with life and death.” Id. at 1893. In a separate affidavit
dated April 7, 2004, Juror Peacock stated that a defense
attorney’s remarks that jurors would have to face God’s
judgment if they imposed the death penalty “made the jury
furious.” Id. at 1900. In response to this argument, one of
the jurors read a passage from the Bible to the other jurors.
Juror Peacock did not recall which juror brought the Bible
or the exact verse that was read.
Investigator Williams also interviewed Pastor Lomax.
Pastor Lomax confirmed that Juror Jordan attends his
church. Moreover, although Pastor Lomax “could not recall
the conversation recounted by [Juror] Jordan,” he “stated

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

39a

2018 WL 4765207

that it [was] possible that he did talk to her about the
death penalty while she was a juror, but he simply does not
remember it.” J.A. 1893.
Barnes’ MAR also attached an October 10, 2000 affidavit
of Cynthia F. Adcock, an attorney with the North Carolina
Resource Center, which recounted interviews with several
jurors. According to Ms. Adcock, in a February 25, 1995
interview, Juror Weddington stated that “a juror named
‘Hollie’ brought a Bible into the jury room and read from
it” and that “Hollie also talked to her pastor during the
case.” J.A. 1902. Additionally, Ms. Adcock’s affidavit
explains that in a separate February 25, 1995 interview,
Juror Wanda Allen (“Juror Allen”) “recalled discussions
about the fact that one of the jurors had brought in a [B]ible
and had talked with her pastor.” Id.
Barnes, 751 F.3d at 235-36.
The state MAR court summarily denied the juror misconduct
claim without a hearing, and Petitioner then raised the claim
in his Habeas Petition in this Court. This Court rejected that
claim but granted a certificate of appealability on that issue.
On appeal, the Fourth Circuit ultimately concluded that the
state MAR court unreasonably applied clearly established
federal law by simply denying Petitioner’s juror misconduct
claim without applying a presumption of prejudice and
ordering a hearing under Remmer v. United States, 347 U.S.
227 (1954). However, the Fourth Circuit further noted that
on habeas review, federal courts are “not permitted to grant
habeas relief unless we are convinced that the error had a
‘substantial and injurious effect or influence in determining
the jury’s verdict.’ ” Barnes, 751 F.3d at 252-53 (quoting
Brecht v. Abrahamson, 507 U.S. 619, 637 (1993) ). The
Fourth Circuit therefore remanded the matter to his Court
for an evidentiary hearing “to determine whether the state
court’s failure to apply the Remmer presumption and its
failure to investigate Barnes’ allegations of juror misconduct
in a hearing had a substantial and injurious effect or influence
on the jury’s verdict.” Barnes v. Joyner, 751 F.3d 229, 253
(4th Cir. 2014).
II. EVIDENTIARY HEARING EVIDENCE
*6 This Court set the matter for an evidentiary hearing,
at which Petitioner presented four witnesses: Janine Fodor,
Hollie Jordan, Ardith Peacock, and Leah Weddington.
Respondent did not present any witnesses.

Petitioner’s first witness was Janine Fodor, an attorney who
represented Petitioner in his direct appeal while she worked
in the North Carolina State Appellate Defender’s Office. She
also represented Petitioner as state post-conviction counsel
after she left the Appellate Defender’s Office. Attorney Fodor
noted that in identifying issues for the direct appeal, she
noticed that the trial transcript reflected a potential claim
of juror misconduct based on the concern that a juror had
contacted a pastor during deliberations. (Tr. at 24.) Attorney
Fodor further noted that the trial transcript reflected that the
defense attorney for co-defendant Chambers made a “fairly
extensive argument that God’s law would prohibit the jurors
from deciding to impose the death penalty,” (Tr. at 31), and
she also noted that the jurors were questioned during the voir
dire about their religious affiliation (Tr. at 32). 1
Attorney Fodor further testified that during her representation
of Petitioner on direct appeal and in post-conviction
proceedings, she conducted interviews of some members of
the jury. She testified that, among other matters, she “asked
about whether or not anybody remembered a juror contacting
somebody or bringing a Bible into the jury room.” (Tr. at 35.)
When asked if she recalled who she spoke with, Attorney
Fodor testified that she talked to juror Hollie Jordan and
another juror, but she did not remember the other juror’s
name. Specifically as to Juror Jordan, Attorney Fodor testified
that Juror Jordan confirmed that she was the juror who had
contacted a pastor during sentencing deliberations. 2
*7 Petitioner’s next witness was Hollie Jordan, a juror at
Petitioner’s trial. Ms. Jordan testified that during Petitioner’s
trial, she was attending Old Country Baptist Church where
Pastor Lomax was the preacher. (Tr. at 47-48.) She testified
that she and her family attended church there “[e]very time the
doors were open,” which included Sunday morning, Sunday
night, and Wednesdays, and her churchgoing was “[v]ery
important” and “[p]layed a big role” in her life. (Tr. at 47-48.)
She and her husband were married by Pastor Lomax, and she
considered him a spiritual guide or leader and would seek his
advice about important things in her life. (Tr. at 47-48.) She
testified that Pastor Lomax has since died. (Tr. at 48.)
With respect to her jury service, she recalled that a defense
attorney argued to the jurors that if the defendants received
the death penalty that the jurors would “burn in hell.” She
went to Pastor Lomax and “asked him if we gave them the
death sentence would we burn in hell.” He told her “No.” (Tr.
at 49.) She testified that this conversation with Pastor Lomax
happened “during the deliberation .... after church one night

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

40a

2018 WL 4765207

when everybody had left,” and occurred outside the church
with no one else present. (Tr. at 50-51.) With respect to this
conversation, she testified as follows:
Q. And did you tell him you were on a jury?
A. Yes.

Q. So you had concerns about that and went to him?
A. Right.
Q. Did you feel better after you spoke with him?
A. Yes, I did.

Q. And did you talk to him -- did you talk to him about -A. I just told him -- the only thing I told him was how
horrific the pictures were.
....
Q. All right. And I think you said you talked to him for
about two hours?
A. It was, yeah, roughly an hour or two.
Q. All right. And of the -- however long you talked to him,
an hour or two, how much of that conversation was about
the Barnes/Chambers/Blakney trial?

Q. Were you worried about what to do in the case when you
went to talk to Pastor Lomax?
A. As far as giving him the death sentence, no. I just -- I
knew what I wanted to do. I mean, that was made up in
my mind. I just wanted to know if I was going to burn
in hell for it.
Q. So the -- okay. So the -A. It wouldn’t have made any difference either way. If he
had said, “Yes, you’re going to burn in hell,” it wouldn’t
have changed my mind about how I felt about what he
would have gotten. 3

A. Just the few minutes that I asked him would we burn
in hell and he said no, we had to live by the laws of the
land. He told me some scriptures in the Bible, you know,
that explained everything. And just that the photos were
horrific. The rest of the time it was about family and, you
know, other things like.

....

Q. All right. Do you remember which Bible verses he gave
you?

Q. Did he lead you to believe the Bible didn’t support the
death penalty?

A. I have no idea now. I’d have to find that Bible and I don’t
know where it is.

A. No. I mean, we have to live by the laws of the land.
That’s all he said. So, no, he just told me I wouldn’t burn
in hell for the decision we were -- you know, I was about
to make.

Q. All right. Do you remember how many verses it might
have -- it was?
A. No, I don’t.
Q. All right. Did you -- were you seeking his advice or
counsel about the case?
A. Just the closing argument as far as, like I said, if they got
the death sentence for what they did and we sentenced
them to death, were we going to die because we’re killing
them. Do you know what I’m saying?
Q. Yes, I think so.

Q. Did Pastor Lomax lead you to believe the Bible
supported the death penalty?
A. No.

....
Q. All right. Okay. And did you talk to your fellow jurors
about what Pastor Lomax told you?
A. Yeah, that we wouldn’t burn in hell.
Q. Did you read the Bible verses to them that he suggested
to you?
*8 A. Yes.
....

A. I was worried about it.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

41a

2018 WL 4765207

the Bible verses to the jury based on the closing argument
of one of the lawyers. Is that what you just said?

Q. Do you know how much time you spent telling the jurors
about what Pastor Lomax had told you?
A. I’m going to say maybe 15 to 30 minutes. I wouldn’t say
any longer than that.
....
Q. Do you remember -- what was your concern that caused
you to go talk to Pastor Lomax after prayer meeting that
night? [Objection omitted.]
A. The only thing was as far as burning in hell. That’s the
only reason I went and talked to him.
Q. That concerned you?
A. (Nods head.) I would have still made the same decision,
though. 4
(Tr. at 50-56.)
Petitioner’s next witness was another juror, Ardith Peacock.
She testified that during the second day of sentencing
deliberations, Juror Jordan brought a Bible into the jury room.
(Tr. at 60.) She testified that Juror Jordan read aloud from
the Bible several passages including “the eye for an eye and
tooth for a tooth,” but Juror Peacock did not recall verbatim
what passages they were or whether they were from the Old
or New Testament. (Tr. at 61.) Juror Peacock further testified
as follows:
Q. Okay. Ms. Peacock, in addition to reading the Bible
verses, did Ms. Jordan state to the other jurors in
your presence where you could hear her that these
Bible verses supported imposition of the death penalty?
[Objection omitted.]
A. She did not state that they were for the death penalty.
It was basically -- it was based on the closing argument
that we had -- that one of the defense attorneys had.
Q. Was she -- she wasn’t arguing that the Bible verses
supported a life sentence, was she?
*9 [Objection omitted.]
A. She didn’t say either way.
Q. Okay. So Ms. Jordan -- what you’re -- let me make sure
I understand. You’re saying that Ms. Jordan was reading

A. Yes.
Q. Okay. All right. Do you want to explain? Can you
explain what you mean by that?
A. Well, during the closing arguments, the defense attorney
had said that his client would have to meet his judgment
day for what he did nor did not do in this situation and
then we would in turn have to meet our judgment day for
what we decide.
Q. And?
A. And then the next day is when she brought the Bible and
read those verses.
Q. So is it fair to say that she was reading those Bible verses
to rebut what that closing argument had said by one of
the defense attorneys? Is that what you’re trying to say
she was doing, rebutting that?
A. It’s saying, you know, we are doing our duty.
....
Q. Would it be fair to say that she brought the Bible
passages in to rebut Chambers attorney’s argument?
A. Yes.
Q. Okay. And that it would be okay to impose the death
penalty in the case, correct?
A. She didn’t -Q. That was -A. She didn’t say either way. I did not hear her say either
way.
(Tr. at 70-72.)
Petitioner’s final witness was Leah Weddington, another
juror in Petitioner’s trial. Juror Weddington testified that she
recalled a Bible being brought in during deliberations, that it
was “probably” during the sentencing deliberations, that she
did not know the name of the juror, that she thought it was
a female juror, and that the juror read Bible verses out loud.
(Tr. at 74-75.) Juror Weddington did not recall which Bible
verses they were, and did not recall if they were from the Old

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

42a

2018 WL 4765207

Testament or New Testament. Juror Weddington speculated
that she “guess[ed]” the juror read the Bible verses to “try[ ]
to convince someone to -- it was okay to give him the death
penalty.” (Tr. at 75.)
There were no other forms of evidence admitted at the
evidentiary hearing, other than what is already part of the
record including the trial transcript.
III. GOVERNING LAW
Under the Sixth Amendment to the United States
Constitution, every person accused of a crime has the right
to a trial by an impartial jury and the right to confront the
witnesses against him or her. U.S. Const. amend. VI. “It is
clearly established under Supreme Court precedent that an
external influence affecting a jury’s deliberations violates a
criminal defendant’s right to an impartial jury.” Barnes, 751
F.3d at 240-41 (collecting authorities); see Fullwood v. Lee,
290 F.3d 663, 677 (4th Cir. 2002) (“The Supreme Court
has clearly stated that private communications between an
outside party and a juror raise Sixth Amendment concerns.”).
“In light of these significant constitutional concerns, the
Supreme Court in Remmer created a rebuttable presumption
of prejudice applying to communications or contact between
a third party and a juror concerning the matter pending
before the jury.” Barnes, 751 F.3d at 241 (citing Remmer,
347 U.S. at 229). In addition, “Remmer clearly established
not only a presumption of prejudice, but also a defendant’s
entitlement to an evidentiary hearing, when the defendant
presents a credible allegation of communications or contact
between a third party and a juror concerning the matter
pending before the jury.” Barnes, 751 F.3d at 242. In this
case, the Fourth Circuit concluded that the state MAR
court unreasonably applied clearly established federal law by
simply denying Petitioner’s juror misconduct claim without
applying a presumption of prejudice and ordering a hearing
under Remmer v. United States, 347 U.S. 227 (1954).
*10 However, “principles of comity and respect for state
court judgments preclude federal courts from granting habeas
relief to state prisoners for constitutional errors committed in
state court absent a showing that the error ‘had a substantial
and injurious effect or influence in determining the jury’s
verdict.’ ” Richmond v. Polk, 375 F.3d 309, 335 (4th Cir.
2004) (quoting Brecht, 507 U.S. at 623). Therefore, as noted
above, the Fourth Circuit directed that this Court conduct “an
evidentiary hearing solely on the issue of whether the state
court’s failure to apply the Remmer presumption and failure
to investigate Juror Jordan’s contact with Pastor Lomax had

a substantial and injurious effect or influence on the jury’s
verdict.” Barnes, 751 F.3d at 252; see Remmer v. United
States, 347 U.S. 227 (1954). In this regard, the Fourth Circuit
noted that “a state court’s failure to apply the [Remmer]
presumption only results in actual prejudice if the jury’s
verdict was tainted by such information.” Barnes, 751 F.3d
at 252 (citing Hall v. Zenk, 692 F.3d 793, 805 (7th Cir.
2012) ). Thus, the Fourth Circuit held that “to be entitled to
habeas relief, Barnes will need to affirmatively prove actual
prejudice by demonstrating that the jury’s verdict was tainted
by the extraneous communication between Juror Jordan and
Pastor Lomax.” Barnes, 751 F.3d at 253. The Fourth Circuit
made clear in its opinion that Petitioner is not entitled to “the
Remmer presumption [of prejudice] in attempting to make
this showing [of actual prejudice] because the presumption
does not apply in the federal habeas context when proving
a substantial and injurious effect or influence on the jury’s
verdict.” Barnes, 751 F.2d at 252-53.
In applying this standard, the Supreme Court has held that
a habeas petitioner is entitled to relief if the court is in
“grave doubt” as to the harmlessness of the error. See O’Neal
v. McAninch, 513 U.S. 432, 436 (1995). “ ‘Grave doubt’
exists when, in light of the entire record, the matter is so
evenly balanced that the court feels itself in ‘virtual equipose’
regarding the error’s harmlessness.” Barnes, 751 F.3d at 252
(internal quotation omitted). The Supreme Court has further
explained that:
As an initial matter, we note that we deliberately phrase the
issue in this case in terms of a judge’s grave doubt, instead
of in terms of “burden of proof.” The case before us does
not involve a judge who shifts a “burden” to help control
the presentation of evidence at a trial, but rather involves
a judge who applies a legal standard (harmlessness) to a
record that the presentation of evidence is no longer likely
to affect. In such a case, we think it conceptually clearer
for the judge to ask directly, “Do I, the judge, think that the
error substantially influenced the jury’s decision?” than for
the judge to try to put the same question in terms of proof
burdens (e.g., “Do I believe the party has borne its burden
of showing ...?”). As Chief Justice Traynor said:
“Whether or not counsel are helpful, it is still the
responsibility of the ... court, once it concludes there was
error, to determine whether the error affected the judgment.
It must do so without benefit of such aids as presumptions
or allocated burdens of proof that expedite fact-finding at
the trial.” R. Traynor, The Riddle of Harmless Error 26
(1970) (hereinafter Traynor).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

43a

2018 WL 4765207

O’Neal, 513 U.S. at 436-37.
IV. FINDINGS
Based on the evidence presented, and for the reasons set out
below, the Court finds that any error by the state MAR court
in failing to apply the Remmer presumption or conduct an
evidentiary hearing in this case is harmless because there was
no actual prejudice to Petitioner since the jury verdict in this
case was not tainted by the third-party contact between Juror
Jordan and Pastor Lomax.
With respect to the nature of the third-party contact, the Court
finds that during the sentencing phase of Petitioner’s trial,
after the guilty verdicts had been returned, defense counsel for
co-defendant Chambers made a closing argument contending
that the jurors themselves would face a “final judgment” for
their decision as jurors and would have to explain to God why
they had “violate[ ] one of your commandments.” Counsel
further argued that, “You can never justify violating a law of
God by saying the laws of man allowed it,” and that it would
not be sufficient to say, “I killed them because the State of
North Carolina said I could.” That evening, Juror Jordan went
to a church service and afterwards approached her pastor,
Pastor Lomax. She spoke to him alone for a few minutes about
the trial. She told him that she was on a jury, she told him that
the crime scene pictures were horrific, and she asked him if
the jurors would “burn in hell” if the defendants received the
death penalty. Pastor Lomax told her “No,” he told her that
the jurors should live by the laws of the land, and he referred
her to several Bible verses. According to Juror Jordan, Pastor
Lomax did not lead her to believe that the Bible supported the
death penalty. He only told her that the jurors would not burn
in hell and that “we have to live by the laws of the land.” There
is no evidence that Pastor Lomax knew any details regarding
the facts of the case or gave any advice or statement as to
what the jurors should do or the verdict they should return.
There is no evidence he attempted to persuade Juror Jordan to
vote for or against the death penalty, or that he suggested that
the Bible supported a particular sentence. Instead, he simply
told Juror Jordan that the jurors would not “burn in hell” for
fulfilling their duty as jurors, and further advised her that the
jurors should follow the law of the land.
*11 The next day, during sentencing deliberations, Juror
Jordan told the other jurors that “we wouldn’t burn in hell.”
She read the Bible passages to the jurors, but did not indicate
whether the passages were for or against imposing the death
penalty. She does not recall what verses they were. Juror

Peacock recalled that one of the verses was “the eye for an
eye and tooth for a tooth,” but she could not recall any other
references or whether the verse was from the Old or New
Testament. Juror Peacock further confirmed that Juror Jordan
did not state either way whether the verses were for or against
the death penalty. Juror Weddington recalled that Bible verses
were read, and she speculated as to why Juror Jordan may
have read the Bible verses, but she did not indicate that Juror
Jordan made any statements or arguments in favor of the death
penalty.
Ultimately, there is no basis to conclude that the Bible
passages were given or used to support a particular sentence
or to advocate for the death penalty. Instead, the passages were
related to Pastor Lomax’s limited statement to Juror Jordan
that the jurors would not “burn in hell” and that they should
follow the law.
In addition, in considering whether the jury’s decision
to impose the death penalty was substantially swayed or
influenced by this contact between Pastor Lomax and Juror
Jordan, the Court has considered the nature of the evidence
before the jury. Petitioner and his two codefendants had
already been convicted of the first-degree murders of B.P.
Tutterow and his wife Ruby Tutterow. Ruby Tutterow
sustained ten gunshot wounds, four of which were to her head.
Barnes, 345 N.C. at 202. B.P. Tutterow was also shot multiple
times and died as a result of shots to his chest along with
several shots to his face and head. Id. He also was beaten and
showed signs of defensive wounds. Id. The Tutterows were
shot with both a .357 handgun and .38 caliber revolver. Id.
Petitioner’s co-defendant Blakney testified at sentencing that
he did not shoot the Tutterows, but that Petitioner and codefendant Chambers shot them while he was in another room
of the house. Id. at 223. Neither Petitioner nor co-defendant
Chambers testified at sentencing, and they did not present
evidence to challenge Blakney’s claim. Id. The jury found
only as to Blakney that he was an accomplice in or accessory
to the capital felony committed by another person and his
participation was relatively minor. Id. at 236-37. The jury
found that the murders were “especially heinous, atrocious,
or cruel,” that Petitioner previously had been convicted of
a felony involving the use or threat of violence to the
person, that the murders were committed for a pecuniary
gain, and that the murders were part of a course of conduct
including other violent crimes. Id. at 249-50. Petitioner and
co-defendant Chambers were sentenced to death, while codefendant Blakney was sentenced to life imprisonment.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

44a

2018 WL 4765207

The Supreme Court of North Carolina found that the
evidence, taken in the light most favorable to the State, tended
to show that:

[Petitioner] shot the Tutterows. The
evidence revealed that [Petitioner]
had fired a handgun or had handled
a handgun soon after it was
fired within a period close to the
time of the killings. Furthermore,
the fact that [Petitioner] disposed
of one of the murder weapons
permits a reasonable inference that
he had fired the weapon. The
State’s evidence also tended to
show that [Petitioner] demonstrated
a willingness to kill someone at
different times on the day of the
murders. [Petitioner] told Maurice
Alexander that he would to anything
he had to do to make a living and
asked him if he had any enemies
that he wanted [Petitioner] to take
out. [Petitioner] threatened to shoot
Robert Beatty and described a pistol
in his possession as the one he had
used to shoot Gil Gillespie a couple
of weeks earlier.

*12 Id. at 242. In addition, as noted in the factual
background set out above, the evidence reflected that “during
court proceedings in November, [Petitioner] wore a gold
necklace and a watch belonging to the Tutterows.” Id. at 202.
With respect to Petitioner’s criminal history, the State
introduced evidence tending to show that Petitioner had
earlier committed a violent, attempted robbery of a sixteenyear-old girl, Terry Hull. Id. at 237-38. As summarized by the
North Carolina Supreme Court,
During her closing argument, assistant district attorney
Symons, while lying on the floor, described Barnes’
encounter with Ms. Hull:
And they went skipping up the hill, hand in hand, these
two sisters, and Mr. Barnes grabbed Terry [Hull] from
behind, dragged her across the street with little sister

Melissa still holding her hand, and he flung her down on
the ground. And they fought and she screamed for help
and he pinned her down with his knees on her arms, and
he put his hands around her neck like this and choked
her. Terry [Hull] told you that her breath was cut off.
Terry [Hull] told you her eyes started to go. Her vision
went; she couldn’t see. She told you her head was red
and felt like it was going to explode. And she told you
he would have killed me if that man didn’t pull him off.
It’s a felony involving the use of violence.
Barnes, 345 N.C. at 237-38.
The jury found several mitigating factors as to Petitioner
during sentencing, but these centered primarily around his
childhood such as being constructively abandoned by his
parents and being a neglected child, which contributed to his
not developing into an adequately adjusted adult. Id. at 250.
As noted by the North Carolina Supreme Court, “[Petitioner]
and Chambers robbed and viciously murdered two elderly
victims. In the course of the murders and the events
that followed, [Petitioner] and Chambers showed an utter
disregard for the value of human life.” Id. at 251. The jury
determined Petitioner’s involvement in these crimes before
the contact between Pastor Lomax and Juror Jordan, and
there is no basis to conclude that the communication between
Pastor Lomax and Juror Jordan would have influenced the
jury’s evaluation of the facts and evidence in any way.
The Court also finds it noteworthy that the jury voted against
the death penalty for codefendant Blakney. Therefore, even
after the exchange between Pastor Lomax and Juror Jordan,
the jury successfully judged each co-defendant individually
and was not influenced to the extent that they could not reject
the death penalty as the appropriate punishment for one of
the three defendants. In addition, there is no evidence that
the jury was hesitant to sentence Petitioner to death or that
the jury discussed Juror Jordan’s comments or Bible passages
in considering whether the death penalty was appropriate for
Petitioner.
In the circumstances, the Court finds that the contact
between Pastor Lomax and Juror Jordan could not reasonably
to be said to have tainted the jury’s verdict. The Court
finds no “substantial and injurious effect or influence”
on the jury’s verdict and has no “grave doubt” on this
point. Ultimately, setting aside all burdens of production
or proof, and considering whether “I, the judge, think that
the error substantially influenced the jury’s decision?”, see

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

45a

2018 WL 4765207

O’Neal, 513 U.S. at 436-37, the Court concludes that the
communication between Pastor Lomax and Juror Jordan did
not substantially influence the jury’s decision as to whether
Petitioner should receive the death penalty. Thus, any error
by the state MAR court in failing to provide a hearing or
apply the Remmer presumption is harmless because there was
no actual prejudice to Petitioner since the jury’s verdict was
not tainted by the contact between Pastor Lomax and Juror
Jordan.
*13 Finally, the Court notes that Petitioner contends that
“the Fourth Circuit essentially decided, as a matter of law,
that if the evidence adduced at the evidentiary hearing
confirmed [Petitioner’s] allegation that a juror in his case
communicated with a third-party about the spiritual or moral
implications of imposing the death penalty, and then relayed
this information to her fellow jurors, the ‘natural effect’ of
this communication would be to taint the integrity of the
sentencing verdict and prejudice [Petitioner’s] constitutional
right to a fair and impartial jury.” (Pet. Br. [Doc. #48] at
10-11.) However, the Fourth Circuit’s opinion focused on the
importance of a hearing. Barnes, 751 F.3d at 249-50 (noting
that where the allegations were of such a character as to
reasonably draw into question the integrity of the verdict,
“further inquiry in a Remmer hearing was required” and
that the “critical component” was the need for a hearing).
Moreover, with respect to the harmless of the error on habeas

review, and Fourth Circuit specifically noted that on the
record presented it was “unclear whether [Petitioner] can
demonstrate actual prejudice or whether the MAR Court’s
unreasonable application of federal law was harmless.”
Barnes, 751 F.3d at 252. Thus, a hearing was necessary.
Having now conducted a hearing and having considered the
evidence presented, this Court has found that Pastor Lomax
did not express his views of the death penalty either generally
or as applied to this case, he did not attempt to persuade Juror
Jordan to vote for or against the death penalty, and he did not
suggest that the Bible supported a particular sentence in this
case. Instead, as set out above, he simply told Juror Jordan
that she would not “burn in hell” and that she should follow
the law. This Court concludes with “fair assurance” that the
communication did not taint the jury’s verdict, and thus any
error by the state MAR court in failing to provide a hearing
or apply the Remmer presumption is harmless.
IT IS THEREFORE RECOMMENDED that as to the single
claim before the Court on remand from the Court of Appeals
for the Fourth Circuit, that the Court find that any error by the
state court was harmless, and that the Habeas Petition [Doc.
#1] be denied as to that claim.
All Citations
Not Reported in Fed. Supp., 2018 WL 4765207

Footnotes

1

2

The Court accepted Attorney Fodor’s testimony subject to several objections by Respondent. Respondent first objected
to any legal analysis or opinion testimony by Attorney Fodor regarding her review of the legal issues on direct appeal.
As to that issue, as noted at the hearing, the Court allowed Attorney Fodor to highlight parts of the record for the Court’s
review, but the Court considered that proffer as an argument of counsel rather than opinion testimony. Respondent has
not presented any basis that would require handling that information any differently.
Respondent objected to Attorney Fodor’s testimony to the extent that it was hearsay as to what Juror Jordan had said.
The Court sustained that objection but allowed Petitioner to make an offer of proof and to address the matter further in
the post hearing briefing if he wanted to present a basis for admission of that evidence. Petitioner did not address the
matter further in the post hearing briefing. Ultimately, the Court concludes that consideration of the proffered testimony
would not affect the determination in any event. Attorney Fodor testified that Hollie Jordan told her that during an evening
recess during sentencing deliberations, she contacted her pastor and the pastor gave her Bible passages that Attorney
Fodor understood could be used to support the death penalty or that showed that it was appropriate for Christians to
consider the death penalty, but Attorney Fodor could not recall what passages they were. Attorney Fodor testified that
Juror Jordan told her that she read those Bible passages to the jury. Even if the Court considers this testimony, the Court
finds that the testimony of Juror Jordan herself is more direct and more credible than the general characterizations by
Attorney Fodor of her recollection from the summary of her notes of her interviews with Juror Jordan. Thus, even if the
offer of proof from Attorney Fodor is considered, it would not affect the determination of the Court. Finally, the Court notes
that Respondent objected to portions of Attorney Fodor’s testimony as violating Fed. R. Evid. 606(b). However, the Court
has not excluded the testimony on this basis, as it appears to fall within the exception set out in Fed. R. Evid. 606(b)(2)
(A) and (B), and did not include evidence of a juror’s mental process in connection with the verdict.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Barnes v. Joyner, Not Reported in Fed. Supp. (2018)

46a

2018 WL 4765207

3

4

Although this statement came in response to Petitioner’s question, Petitioner moved to strike the response under Fed. R.
Evid. 606. The Court agrees that the juror’s mental thought process should not be considered, and therefore will grant the
request and has not considered that response. See Fullwood v. Lee, 290 F.3d 663, 679 80 (4th Cir. 2002). The Court sets
out the testimony here for the record. The Court also notes that during the testimony, Respondent maintained a standing
objection based on Fed. R. Evid. 606, and the Court gave Respondent the opportunity to address that issue further in the
post hearing briefing. However, Respondent did not address that issue with any additional authority or specificity, and the
testimony appears to fall within the exceptions in Fed. R. Evid. 606(b)(2)(A) and (B). Therefore, Respondents’ objections
under Fed. R. Evid. 606 are overruled. However, as noted above, the Court has not considered the specific testimony to
which Petitioner objected regarding the juror’s thought process and in particular the effect of any outside communications
on the minds of the juror in reaching the verdict. See id.; United States v. Cheek, 94 F.3d 136, 143 (4th Cir. 1996).
Again, although this statement came in response to Petitioner’s question, Petitioner moved to strike the response under
Fed. R. Evid. 606. The Court agrees that the juror’s mental thought process should not be considered, and therefore will
grant the request and has not considered that response. The Court sets out the testimony here for the record.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

